OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/PERU’S ALTERNATIVE
DEVELOPMENT PROGRAM
AUDIT REPORT NO.1-527-06-001-P
DECEMBER 13, 2005




SAN SALVADOR, EL SALVADOR
                       Office of Inspector General




       December 13, 2005

       MEMORANDUM

       TO:                USAID/Peru Director, Hilda Arellano
                          USAID/Peru Regional Contracting Officer, James Dunlap

       FROM:              Regional Inspector General/San Salvador, Timothy E. Cox “/s/”

       SUBJECT:           Audit of USAID/Peru’s Alternative Development Program (Report No.
                          1-527-06-001-P)

       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in Appendix II of the report.

       The report contains 16 recommendations intended to improve implementation of the
       Alternative Development Program. Based on your comments and documentation
       provided, final action has been taken on Recommendation No. 8 and management
       decisions have been reached for Recommendation Nos. 2, 3, 4, 5, 10, and 13.
       Management decisions for Recommendation Nos. 1, 6, 7, 9, 11, 12, 14, 15 and 16 can
       be recorded when USAID/Peru has developed a firm plan of action, with target dates, for
       implementing the recommendations. In this regard, please advise us in writing, within 30
       days, of the actions planned to implement these recommendations. Determination of
       final action on the recommendations currently without final action will be made by the
       Audit Performance and Compliance Division (M/CFO/APC).

       I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 4

Audit Objectives ................................................................................................................ 5

Audit Findings ................................................................................................................. 6

     Were USAID/Peru’s Alternative Development Program activities
     on schedule to achieve planned sustainable results? ................................................ 6

          More Effective Host Government Support Was Needed ...................................... 8

          A Better Strategy for Targeting Communities and Verifying Eradication Efforts
          Was Needed........................................................................................................ 11

          Award Fee Plan Was Inconsistent with Contract Terms .................................... 15

          Targets for Voluntary Eradication Were Not Properly Documented ................... 16

          Cash Payments Were Not Clearly Linked to Sustainable Development
          and Were Susceptible to Fraud .......................................................................... 18

          Infrastructure Projects Were Not Delivered to Seven Communities.................... 20

          Infrastructure Projects Were Not Directly Linked to Alternative
          Development ...................................................................................................... 22

          Infrastructure Projects Did Not Include Maintenance Plans ................................ 23

     Were USAID/Peru’s Alternative Development Program activities managed
     in an efficient manner? ............................................................................................. 25

          Benefits to Non-Compliant Communities Were Not Suspended ......................... 25

          Benefits Should Be Limited Until Coca Is Completely Eradicated ...................... 27

          Cost per Hectare Was High ................................................................................ 28

          Contractor Administrative Costs Should Be Reduced......................................... 30

Appendix I – Scope and Methodology ........................................................................ 33

Appendix II – Management Comments ....................................................................... 35

Appendix III – Alternative Development Program Indicators.................................... 48
SUMMARY OF RESULTS
As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Were USAID/Peru’s Alternative Development Program activities on schedule to
    achieve planned sustainable results?

•   Were USAID/Peru’s Alternative Development Program activities managed in an
    efficient manner?

With respect to the first question, based on performance during 2004, USAID/Peru’s
Alternative Development Program activities were on schedule to achieve planned
sustainable results for two of the four main results indicators (namely, the number of
hectares of illicit coca voluntarily eradicated and number of program clients who remain
coca free). The performance target for the number of hectares of illicit coca voluntarily
eradicated was met in 2004 only because the original target was substantially reduced.
Alternative development activities were not on schedule to achieve planned results for
the other two main indicators (total hectares of illicit coca in Peru and the population
involved in coca production). It should be noted that both of these indicators were
susceptible to many influences other than USAID’s alternative development activities.
We could not determine if activities were on schedule to meet targets for 2005 because
only annual targets had been established and four months remained in 2005 at the time
of our audit. Since no interim targets or schedules were established to be met by August
31, 2005, or by any other date during 2005, there were no agreed-upon standards
available for measuring progress during 2005 to date. (See pages 6 to 8.)

There were two overarching reasons why the program had not been more successful:
more effective host government support was needed and a better strategy for targeting
communities and for verifying eradication needed to be developed. Our report also
describes an inconsistency between the contract terms and the award fee plan, a lack of
rigor in developing voluntary eradication targets, reliance on cash payments to
community members which do not have a clear link to sustainable development activities
and are susceptible to fraud, some instances where infrastructure projects promised to
communities were not delivered, some instances where infrastructure projects met
recreational and/or aesthetic needs but were not linked to economic development, and a
lack of maintenance plans for infrastructure projects. (See pages 8 to 25.)

With respect to the second question above, Alternative Development Program activities
were not managed in an efficient manner. The report describes cases where
USAID/Peru’s contractor, Chemonics International, Inc., continued to provide benefits to
communities that had stopped complying with their eradication agreements and also
describes a need to limit benefits to communities that have not yet eradicated their coca,
a need to bring the benefits provided to communities into a more reasonable relationship
with the amount of coca eradicated by the communities, and a need to better control
administrative costs associated with the program. (See pages 25 to 32.)

This report contains the following recommendations for USAID/Peru:



                                                                                        1
•   Develop an action plan to obtain needed support from the Government of Peru.
    (See page 10.)

•   Develop a better strategy for targeting communities with larger amounts of coca
    and develop a better method for verifying that all coca has been eliminated. (See
    page 13.)

•   Seek agreements from communities to eradicate all of their coca at one time,
    rather than in phases. (See page 14.)

•   Increase the weight assigned to key measurements of success (voluntary
    eradication of coca and the number of clients that remain coca free) to at least 50
    percent of the award fee pool. (See page 15.)

•   Modify the contract with Chemonics to reflect revised voluntary eradication targets
    and ensure that the revised targets are consistently described. (See page 17.)

•   Establish voluntary eradication targets for calendar years 2006 and 2007 that are
    achievable and realistic, but not set too low that they become irrelevant to the
    program objectives. (See page 17.)

•   Develop a plan to transition the cash payment program into a program that
    promotes more sustainable income generation. (See page 19.)

•   Ensure that the program can deliver infrastructure projects before signing
    agreements with communities, provide clear boundaries to implementing partners
    on what can be promised to communities, and modify the standard agreements
    with communities to include language stating that the infrastructure projects can
    only be delivered after necessary environmental assessments are performed.
    (See page 21.)

•   Ensure that Chemonics establishes guidelines for the types of infrastructure works
    that contribute to the program goal of generating licit economic activities. (See
    page 23.)

•   Require Chemonics to include in the community agreements a requirement for
    communities to develop and implement maintenance plans, ensure that
    Chemonics assists communities in developing maintenance plans, and ensure that
    the potable water system in Ricardo Palma, Peru, is repaired. (See page 25.)

•   Make a management decision with regard to ineligible questioned costs of
    $225,037 (representing payments to non-compliant communities) and recover the
    amounts determined to be unallowable. (See page 26.)

•   Limit benefits provided to communities until the communities have completely
    eradicated their coca. (See page 28.)

•   Establish reasonable limits on the investments made in the communities. (See
    page 29.)




                                                                                     2
 •   Require community contributions (e.g., in-kind contributions) to infrastructure
     projects. (See page 29.)

 •   Conduct a personnel assessment to determine the level of staffing required to
     implement the program and determine if the salaries are reasonable, and monitor
     to verify that Chemonics International, Inc. transitions its international staff to local
     staff as intended. (See page 32.)

 •   Make a management decision with regard to ineligible questioned costs of $2,487
     (representing raises for Chemonics staff that were not reasonable) and recover the
     amounts determined to be unallowable. (See page 32.)

USAID/Peru disagreed with some of the conclusions in our draft audit report but believed
that the report contained many useful recommendations for strengthening the Alternative
Development program. Our evaluation of management comments is provided after each
finding and recommendation in the report. USAID/Peru’s comments in their entirety are
included in Appendix II.




                                                                                            3
BACKGROUND
The U.S. Government made a large commitment to fighting drug production and
narcotics trafficking throughout the Andean Region with the inauguration of Plan
Columbia in 2000. As successes were achieved in Colombia, narcotics traffickers aimed
at neighboring countries such as Ecuador and Peru to diversify their source of raw
material. A slight rise in illicit coca production in Peru in 2002 caused the U.S. and
Peruvian governments to adjust their counter-narcotics strategy. For the first time,
selected development activities were directly linked to voluntary coca elimination.
USAID and the Government of Peru's counter-narcotics organization, the Comision
Nacional para el Desarrollo y Vida Sin Drogas (DEVIDA) signed a bilateral agreement in
September 2002 to implement the Alternative Development Program. DEVIDA was
charged with coordinating, planning, promoting, monitoring, and evaluating the “national
strategy to fight against narcotics” as well as coordinating the technical and
programming inputs from several Government ministries involved with law enforcement
and development. This agreement programmed approximately $300 million in Andean
Counter-Narcotics Initiative funds from 2002 through 2007 to achieve USAID's special
objective of "sustained reduction of illicit coca crops in target areas of Peru."

At the end of 2002, USAID initiated a pilot voluntary eradication activity and a short-term
community support activity, financed through the Andean Counter-Narcotics Initiative.
USAID signed a $50 million, 18-month agreement with Chemonics International Inc.
(Chemonics) to implement these activities. Then in March 2004, a follow-on contract
was signed with Chemonics International, Inc. for $102 million from March 2004 through
September 2007. As of August 31, 2005, according to USAID/Peru, $93 million had
been spent from the total $152 million obligated for both contracts.

The program reflected a long-term U.S. Government counter-narcotics strategy
composed of four elements: (1) law enforcement, (2) interdiction, (3) eradication aimed
at disrupting narcotics trafficking, and (4) alternative development interventions aimed at
increasing the licit economy and social stability in target areas. With results to be
achieved within six years, alternative development and law enforcement programs were
planned to work together to convince poor, rural farm families cultivating coca to
abandon the illicit coca economy by voluntarily eradicating the plant, and at the same
time to participate in development activities that produce rapid results. The strategy
envisioned that coca would be permanently abandoned through a combination of
USAID-stimulated alternative licit economic opportunities and improved social
conditions, and U.S. Government-supported voluntary and forced eradication and
interdiction measures.

The Alternative Development Program was implemented through coordination with
various entities and organizations. As previously stated, the program was implemented
primarily through a contract with Chemonics.         Chemonics was to manage the
implementation process; to ensure implementation was carried out in a coordinated,
transparent, and rapid manner, in accordance with USAID rules and regulations; and to
ensure that the agreed-to-activities were achieving the anticipated results and impacts.
Chemonics worked with community leaders and potential program beneficiaries to
encourage communities to commit to voluntary coca eradication. Chemonics then
presented community agreements to DEVIDA for signature with community leaders.


                                                                                         4
Once the communities signed agreements, Chemonics made sub awards (contracts and
grants) to local organizations to implement the activities stipulated in the agreements.
These activities included construction of social and economic infrastructure, as well as
technical assistance to develop sustainable economic activities as alternatives to coca
production.

The State Department’s Narcotics Affairs Section (NAS) and the Government of Peru’s
agency for forced eradication CORAH (Control y Reduccion de la Coca en el Alto
Huallaga) were responsible for providing forced eradication and interdiction measures
involving communities that were not willing to undertake voluntary eradication. CADA,
(Cuerpo de Asistencia para el Desarrollo Alternativo) funded by NAS, was a
Government of Peru entity responsible for identifying communities with coca production
and measuring coca fields before and after eradication. PETT, (Proyecto Especial de
Titulacion de Tierras y Catastro Rural), a component of the Government of Peru’s
Ministry of Agriculture, was responsible for providing assistance with the program’s land
titling activities.

AUDIT OBJECTIVES
As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Were USAID/Peru’s Alternative Development Program activities on schedule to
    achieve planned sustainable results?

•   Were USAID/Peru’s Alternative Development Program activities managed in an
    efficient manner?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                       5
AUDIT FINDINGS
Were USAID/Peru’s Alternative Development Program activities
on schedule to achieve planned sustainable results?
Based on performance during 2004, USAID/Peru’s Alternative Development Program
activities were on schedule to achieve planned sustainable results for two of the four
main results indicators (namely, the number of hectares of illicit coca voluntarily
eradicated and number of program clients who remain coca free). The performance
target for the number of hectares of illicit coca voluntarily eradicated was met in 2004
only because the original target was substantially reduced. Alternative development
activities were not on schedule to achieve planned results for the other two main
indicators (total hectares of illicit coca in Peru and the population involved in coca
production). It should be noted that both of these indicators were susceptible to many
influences other than USAID’s alternative development activities. We could not
determine if activities were on schedule to meet targets for 2005 because only annual
targets had been established and four months remained in 2005 at the time of our audit
(which ended on September 8, 2005). Since no interim targets or schedules were
established to be met by August 31, 2005, or by any other date during 2005, there were
no agreed-upon standards available for measuring progress during 2005 to date.

The following table shows the available information on planned and actual results as of
December 31, 2004 and August 31, 2005.

Table 1: Planned vs. Actual Results

    Main Indicators1          Calendar Year 2004                Calendar Year 2005
                              Targets and Results               Targets and Results
                          Original Revised Actual          Original Revised     Actual
                          Target    Target                 Target    Target     (as of
                                                                               8/31/05)
    Number of              8,000     2,700       2,728      8,000     3,000      3622
    Hectares of Illicit
    Coca Voluntarily
    Eradicated

1
  These were the four main performance indicators for the Alternative Development Program, as
identified in the contract with Chemonics, and were considered by USAID/Peru and Chemonics
(and us) to be the key indicators of success for the program. These four indicators, which fell
under the largest contract line item (auto-eradication), were budgeted for approximately 85
percent of the contract budget excluding start-up, situational response, and monitoring
performance costs. The other indicators, which fell under the second largest contract line item
(willingness to reject coca increased) were budgeted for approximately 15 percent of the contract
budget excluding the same elements noted above and included the number of communities
signing and complying with coca elimination agreements, the number of families who agreed to
eradicate their coca, the cumulative percentage of target families who agreed to eradicate their
coca, and the percentage of the target population that accepted the need to eliminate coca in
their community.




                                                                                               6
    Main Indicators1           Calendar Year 2004                   Calendar Year 2005
                               Targets and Results                  Targets and Results
                           Original Revised Actual             Original Revised     Actual
                           Target    Target                    Target    Target     (as of
                                                                                   8/31/05)
    Number of              23,500     23,500       27,704      30,000    30,000     28,670
    Program Clients
    Who Remain
    Coca Free
    Total Hectares of      27,000     27,000      27,500 -      21,000       21,000         Not
    Illicit Coca in Peru                          50,3003                                 available
    Population             29,700     29,700       52,755       23,100       23,100         Not
    Involved in Coca                                                                      available
    Production

Additional information on the program indicators is presented in Appendix III.




                                                                Photo taken by an OIG auditor on
                                                                August 31, 2005 of a voluntarily
                                                                eradicated coca field, in Ricardo
                                                                Palma, Peru.



2
  A casual perusal of the available performance information might lead the reader to conclude
that the program will fall far short of its revised target of eradicating 3,000 hectares of coca during
2005 since only 362 hectares had been eradicated by August 31, 2005. Such a conclusion might
be premature. Mission officials expect activity to accelerate and noted that, in 2003, 3,962
hectares were eradicated during the last four months of the year – 81 percent of all the hectares
eradicated in that year. However, in the following year, 2004, only 1,100 hectares, or 40 percent
of the hectares eradicated in 2004, were eradicated in the last four months of the year.
USAID/Peru and Chemonics were hopeful that the voluntary eradication target will be met. In its
comments on our draft report, the Mission stated that, as of November 7, 2005, 1,062 hectares
have been eradicated during 2005
3
  The lower estimate is from a Central Intelligence Agency (CIA) Crime and Narcotics Center
survey and the higher estimate is from the United Nations Office on Drugs and Crime’s Peru
Coca Cultivation Survey dated June 2005. According to ADP program monitoring and evaluation
staff, the higher estimate is considered more accurate since the CIA survey did not account for
new areas of coca grown in Peru.



                                                                                                      7
For the year ended December 31, 2004, the program was responsible for voluntary
eradication of 2,728 hectares of coca as compared to a revised target of 2,700 hectares
and the original target of 8,000 hectares. As is discussed in more detail in the section
beginning on page 16, the original target was seen by USAID/Peru as unrealistic and
overly aggressive. However, the Mission did not amend the contract with Chemonics to
reflect the new target or document the basis for the new target. During 2004, the
number of Alternative Development Program (ADP) clients who remained coca free (i.e.,
the number of residents of communities that were complying with their agreements with
the ADP) increased to 27,704, exceeding the target of 23,500. As compared to the other
two main results indicators discussed below, these results indicators were more directly
influenced by the ADP program. According to the contract with Chemonics, these were
considered the key measurements of success for the program and performance against
these indicators was to determine a significant portion of the award fee paid to
Chemonics. However, as discussed in the section below beginning on page 15, the
award fee actually paid was based on more subjective factors.

The program did not meet planned targets for reducing the total number of hectares of
illicit coca in Peru: during 2004, according to the United Nations report cited in footnote
number 3, there were 50,300 hectares of illegal coca at the end of 2004 versus a target
of 27,000 hectares. The program also did not meet the target for reducing the
population involved in coca production: at the end of 2004, DEVIDA estimated that
52,755 Peruvians were involved in coca production versus a target of 29,700 for 2004.
This estimate also exceeds the estimated 40,260 Peruvians who were involved in coca
production in 2002, before the ADP program began.

The following sections of the report, through page 25, discuss the major factors that
limited the results achieved by the ADP program.

More Effective Host Government Support Was Needed
Summary: The Government of Peru and USAID/Peru signed a bilateral agreement to
pursue a counter-narcotics strategy to improve the licit economy, improve access to
social services, and to disrupt narcotics trafficking through interdiction and eradication.
Certain functions, such as law enforcement and forced eradication, can only be carried
out by the Government of Peru. Without effective support by the Government of Peru,
the Alternative Development Program will face extremely difficult challenges. More
effective support from the government is needed to provide a secure environment in
coca-producing regions, to present a credible threat of forced eradication for those
who do not consent to voluntary eradication, and to advance the program’s land-titling
component. Several factors have constrained the effectiveness of the government’s
support for the program, including a lack of resources, the current administration’s
relatively narrow base of political support, and upcoming Presidential elections
scheduled for April 2006. A stronger, responsive state presence in coca-producing
regions could do much to advance the ADP project.

As noted in the background section, the ADP program is part of a long-term U.S.
Government counter-narcotics strategy that includes law enforcement, interdiction,
eradication, and alternative development interventions. None of the elements of this
strategy can operate effectively unless the Government of Peru can exercise its authority
in regions where coca is cultivated and provide a secure environment. Moreover, certain


                                                                                              8
functions, such as law enforcement and forced eradication, can only be carried out by
the Government of Peru within its territory. The interrelationship between the ADP
program and other elements of the strategy was formally recognized in the bilateral
agreement for the ADP program which states that “the Governments of Peru and the
United States are pursuing a joint, long-term counter narcotics strategy composed of two
interdependent elements: (1) efforts to increase the licit economy and improve access to
social services in participating communities; and (2) law enforcement efforts, including
interdiction and eradication aimed at disrupting narcotics trafficking, lowering the farm-
gate price of coca leaf, and reducing the area dedicated to coca production.” In sum,
without effective support from the Government of Peru, the Alternative Development
Program cannot achieve sustainable results.

It was evident that more effective support from the Government of Peru was needed to
advance the ADP program. First, difficult security conditions in the areas where coca is
cultivated have impeded implementation of the ADP program. During the year ending
March 2005, Chemonics suspended activities in its regional offices for a total of 206
days due to hazardous situations and threats such as murder, armed robbery, lockouts,
strikes, blocked roads, and acts of terrorism.4 Because of inadequate security,
Chemonics plans to focus future program activities on only two of the original four
regions. Moreover, insecurity in coca producing regions enhances the standing of
narco-trafficking organizations as rivals or potential rivals of the government in these
regions and diminishes the prestige and authority of the government in comparison.

Second, the pace of forced eradication efforts by the Government of Peru has been
somewhat inconsistent at times. For example, at the outset of 2005, only about 125
hectares of coca per month was forcibly eradicated. However, the pace of forcible
eradication has recently accelerated and, in July 2005, 1,300 hectares of coca was
eradicated. Forced eradication, or at least a credible threat of forced eradication,
changes the incentives that farmers face and makes voluntary eradication through the
ADP program more attractive. Coca is a hardy plant that is easy to grow and finds ready
markets. An alternative crop such as cocoa can rival its profitability but require several
years to become profitable. By increasing the perception of risk associated with coca
cultivation, the threat of forced eradication makes alternative crops more attractive.

Third, and in addition to providing a more secure environment and stepping up forced
eradication efforts, the Government of Peru needs to better support the ADP program’s
land titling activity. On August 27, 2003, Chemonics and PETT, (Proyecto Especial de
Titulacion de Tierras y Catastro Rural, a component of the Ministry of Agriculture)
entered into an agreement to implement land titling activities. Land titles strengthen the
property rights of farmers and facilitate investments in crops that require long lead times
to become profitable. Land titles also help farmers convert land into cash flows by
selling, leasing, or mortgaging it. Unfortunately, the agreement did not specifically
describe the responsibilities of Chemonics and PETT for the land titling activity. As of
August 31, 2005, Chemonics had spent $3.3 million to help 6,127 beneficiaries obtain
titles, but PETT had only issued titles to 881 beneficiaries. PETT has requested
additional support in exchange for additional land titles, requests which Chemonics and


4
 The 206 days were distributed as follows: Aguaytia 84 days, Tocache 70 days, Tingo Maria 26
days, and VRAE 26 days.



                                                                                          9
USAID/Peru view as unwarranted. In light of the lack of progress by PETT, USAID/Peru
has suspended funding for land titling activities.

Several factors have constrained the Government of Peru’s support for the ADP project.
As in all developing countries, the resources available to the government are extremely
limited in relation to needs. Peru is a large country with a great deal of inhospitable,
rugged terrain, and narco-traffickers typically concentrate their activities in the most
remote areas. Providing for substantially improved access into these regions would
require a significant investment and the costs of controlling this territory would be
significant as well. In addition, coca eradication is not universally popular in Peru: within
the regions targeted by the ADP project, a 2004 DEVIDA survey showed that only 66
percent of the population recognized the negative consequences of illicit coca cultivation
and only 43 percent accepted the need to eliminate coca in their community. Due to its
rather narrow base of support and upcoming Presidential elections scheduled for April
2006, the Toledo administration is not ideally positioned to exert strong leadership.
Indeed, support for counter-narcotics activities, and the ADP project in particular, cannot
be taken for granted even within the government: for example, a ranking official in
DEVIDA expressed to us the opinion that alternative development activities should not
be linked to voluntary eradication and U.S. Government officials we interviewed believe
that some Government of Peru officials still do not believe that coca cultivation is a
Peruvian problem but rather a U.S. problem. Finally, given the level of resources that
narco-traffickers can command, corruption of individual law enforcement officials is a
possibility that cannot be dismissed.

The factors described in this section have impeded the progress of the ADP project. As
is discussed in the section above beginning on page 6, the number of Peruvians
involved in coca cultivation has increased substantially since the ADP project began in
2002. A stronger, responsive state presence in coca-producing regions, as well as
better support for land titling activities, could do much to advance the ADP project.

   Recommendation No. 1: We recommend that USAID/Peru develop an action
   plan along with the State Department’s Narcotics Affairs Section (NAS) to obtain
   needed support from the Government of Peru.

Evaluation of Management Comments – In response to our draft report, USAID/Peru
stated that the Mission and NAS are moving forward with a joint plan to leverage
increased Government of Peru support. The plan envisions that USAID/Peru will begin
to fund alternative development activities for communities that have undergone forced
eradication and are willing to sign agreements stating that they will not replant coca.
Helping to provide licit economic opportunities for these communities should make
forced eradication efforts more permanent. Providing alternative development activities
in conjunction with forced eradication efforts will also allow the Government of Peru to
soften the image of forced eradication efforts and blunt possible criticisms of forced
eradication. As part of this initiative, the Government of Peru has agreed to make clear
to the involved communities that they will not be allowed to replant coca and has agreed
to return to the affected areas to re-eradicate as necessary. This plan is to be
implemented first in Pizana/Polvera, a hard-core coca-growing area where a major
forced eradication campaign was just completed. It is hoped that local government
leaders will take a more prominent role in eradication and alternative development
activities in their communities, strengthening the authority of the government and
ultimately leading to improved security.


                                                                                          10
A management decision will be reached for Recommendation No. 1 when USAID/Peru
develops a firm plan of action to obtain the needed support from the GOP in the areas
where the ADP project is currently working. It would be very helpful if this plan
specifically addressed the land titling activity.

A Better Strategy for Targeting Communities
and Verifying Eradication Efforts Was Needed

Summary: The success of the ADP program is dependent on the strategy for targeting
communities and then verifying that the communities have eradicated their coca.
However, the current strategy, requiring communities to disclose where their coca
fields are and then requiring CADA technicians to visit the fields repeatedly to verify
eradication, constrains the effectiveness of voluntary eradication efforts and introduces
inefficiencies into program operations. This strategy was developed after CADA
proved unable to reliably analyze satellite imagery and was also driven by a
requirement to verify eradication which occurs in phases rather than at one time. As a
result, any coca fields not disclosed by the communities themselves were unknown
and unmeasured, and millions of dollars were spent in communities that had very little
or no coca because the program was unable to target areas with high concentrations
of coca.

The effectiveness of the ADP program in encouraging voluntary eradication depends
heavily on the program’s strategy for identifying and targeting communities that are
cultivating large amounts of coca. Conversely, if the program lacks an effective strategy
for identifying high-value targets, it is likely that less coca will be eradicated and
resources may be misdirected toward communities that are cultivating negligible
amounts of coca. Efficiency issues also arise in the verification of voluntary eradication
efforts: obviously, it is desirable to accomplish this verification as efficiently as possible
so as to preserve program resources to advance ADP program objectives.

Originally, Chemonics relied on CADA (Cuerpo de Asistencia para el Desarrollo
Alternativo), to identify communities with significant coca production. Unfortunately, the
information provided by CADA was unreliable. CADA analyzed satellite imagery to
identify coca fields and estimate their extent. Based on this information, the program
identified areas with larger amounts of coca production and began negotiations with
communities to voluntarily eradicate their coca fields in exchange for community
developmental assistance. However, when eradication efforts began, USAID officials
learned that CADA’s analyses of satellite imagery were flawed. To cite an example,
CADA’s analysis of satellite imagery indicated that there were 609 hectares of coca
production in one area. From that amount, 100 hectares of coca was forcibly eradicated.
The remaining 509 hectares was determined by Chemonics to be a prime target for
voluntary eradication. However, when final measurements were taken by CADA
technicians on the ground, only about 75 hectares of coca were found.




                                                                                           11
                                                          Photograph taken by an OIG
                                                          auditor on September 2, 2005, of
                                                          CADA         field   technicians
                                                          demonstrating      the      coca
                                                          measurement process in San
                                                          Reyes, Peru. This photo hints at
                                                          but does not fully convey the
                                                          difficulties of access in coca
                                                          producing regions.     Reaching
                                                          coca fields can require hours of
                                                          travel on foot through dense
                                                          jungle in mountainous terrain.

When the information provided by CADA proved to be unreliable, Chemonics then
began to rely on the communities themselves to identify coca fields. When a community
agreed to participate in the voluntary eradication program, they would send a letter of
invitation to CADA. CADA would then visit the coca area and measure the coca that had
been declared by the communities. Once the coca had been eradicated, CADA would
return to the community to verify the amounts that had been eradicated. This
methodology also proved to be unreliable because communities often inflated their
estimates of coca production in order to be chosen to receive developmental assistance.
For example, two communities each declared 200 hectares of coca, but when CADA
arrived to measure the area, only 9 hectares of coca was present in one community and
none in the other. Furthermore, manual measurement of declared coca fields does not
provide assurance that all coca has been eliminated from an area since CADA only
measures amounts declared by the communities. Any coca fields that are not disclosed
to CADA are unknown and unmeasured.

Once communities report that they have eradicated their coca, CADA must verify that
the coca is actually eradicated. However, the verification process performed by CADA
was inefficient since the communities were not expected to eradicate all their coca at
one time, but rather in phases. As the community made progress in eradicating its coca,
the community was rewarded with community development assistance. Therefore,
CADA was expected to verify the coca eradicated after each phase, which meant
returning to the same coca fields several times. This process was inefficient and time
consuming. While community members may live and gather together in some central
location, a community’s coca fields can be located miles from the community center. It
often takes several hours to travel to the communities and then approximately one to six
hours on foot each way to travel from the communities to the coca fields. At times, this
has caused significant delays and backlogs in measuring the coca eradicated. This was
an inefficient use of resources and demonstrated the need for a better method of
verification.




                                                                                       12
                                                             Photograph taken by an OIG
                                                             auditor on August 31, 2005, of
                                                             the     central      community
                                                             gathering       location    in
                                                             Achinamiza, Peru.

This unwieldy strategy for targeting large coca fields and verifying completed eradication
efforts came about primarily because of the requirement for CADA to revisit communities
several times to verify eradication in phases. Another cause was CADA’s inability to
reliably analyze satellite imagery. According to the State Department’s Narcotics Affairs
Section (NAS), CADA has over time significantly improved its ability to analyze satellite
imagery for coca. NAS officials stated that CADA’s results are now approaching 95
percent accuracy. In addition, NAS has funded for one year an aircraft to test whether
more current and accurate information can be obtained through aerial imaging. CADA is
currently in the process of outfitting this aircraft with instrumentation.

Without a better method of targeting coca fields and verifying voluntary eradication,
USAID/Peru will be unable to achieve its goals. Millions of dollars were spent in
communities that had very little or no coca because Chemonics was unable to effectively
target communities with high amounts of coca.

The program spent approximately $22 million for 257 communities, out of a total of 385
communities assisted as September 8, 2005, that had less than 20 hectares of coca
eradicated. The table below shows the amount spent in communities that had little or no
coca:

Table 2: Funds Spent On Communities That Had Little or No Coca

     Hectares of Coca                 Funds Spent             Number of communities
       Eradicated
           0-4.9                      $6,568,870                         103
           5-9.9                      $8,228,980                          81
          10-20                       $7,525,929                         73
          Totals                      $22,323,779                        257

   Recommendation No. 2: We recommend that USAID/Peru in coordination with
   the State Department’s Narcotics Affairs Section (NAS), CADA (Cuerpo de
   Asistencia para el Desarrollo Alternativo), DEVIDA (Comision Nacional para el
   Desarrollo y Vida Sin Drogas), and Chemonics, develop a better strategy for
   targeting communities with high concentrations of coca fields and verifying that
   all coca grown in the communities has been eradicated.


                                                                                        13
   Recommendation No. 3: We recommend that USAID/Peru seek agreements
   from communities to eradicate all of their coca at one time, not in phases.

Evaluation of Management Comments – In its comments on the draft report,
USAID/Peru stated that, during the initial phase of the ADP program, the program was
deliberately designed to include communities that had relatively small amounts of coca,
in addition to communities with larger concentrations of coca, to avoid any possible
perception that the program was rewarding communities who were most heavily involved
in illicit coca production. Further, in the Mission’s judgment, eradication in the most
hard-core communities would have been too destabilizing because of the social unrest
that would have followed eradication efforts. Since that time, the Mission has taken
cautious steps to make the program more efficient.

In response to Recommendation No. 2, USAID/Peru stated that, for 2006, the Mission
and NAS plan to pursue new methodologies for targeting coca for voluntary eradication.
First, NAS has new surveillance capability in an airplane equipped with a camera and
Global Position System. NAS will perform over flights in areas suspected to have dense
concentrations of coca, map the coca, and give the information to USAID, so that
USAID’s contractor can approach the local authorities and the communities about the
voluntary eradication program. Secondly, the program will procure satellite photographs,
CADA will analyze them, and Chemonics will verify the analysis on the ground.

For the verification step of the voluntary eradication program, USAID/Peru stated that
the Mission, NAS, CADA, and Chemonics have already initiated a more efficient and
more effective methodology. When a community is ready to eradicate, CADA returns to
the community and supervises the eradication as it is happening. To date in the 2005
voluntary eradication program, according to USAID/Peru, virtually all communities have
eradicated all at once, reducing the number of times that CADA has to return to a
community.

In commenting on Recommendation No. 3, USAID/Peru agreed with the audit finding
that it would be more efficient and cost effective for communities to eradicate their coca
at one time. However, the Mission believes that the Supreme Decree signed by
President Toledo in April 2003 does not allow the program to insist on eradication of all
of the coca in communities at once. Nevertheless, the Mission stated that communities
may choose to eradicate at one time and USAID, through its contractor, will continue to
encourage communities to do so. As stated above, for 2005, virtually all communities
have chosen to eradicate all at once. Based on USAID/Peru’s comments, we have
modified our recommendation from requiring communities to eradicate all their coca at
once to seeking agreements from communities to eradicate all of their coca at once.

Based on the information provided by USAID/Peru, we consider that management
decisions have been reached for Recommendation Nos. 2 and 3. Determination of final
action for these recommendations will be made by the Audit Performance and
Compliance Division (M/CFO/APC).




                                                                                       14
Award Fee Plan Was
Inconsistent with Contract Terms

Summary: The contract between USAID/Peru and Chemonics International, Inc.,
signed on March 17, 2004, contained a possible award fee of $5.1 million. Progress
against two key results indicators (the number of hectares of coca eradicated and the
number of clients who remained coca free) was to determine a significant portion of
the contractor’s award fee. However, the award fee was based primarily on contractor
effort rather than results. This occurred because the Mission did not use the contract
as a reference in preparing the award fee plan and also because mission staff were
not comfortable using objective factors like the number of hectares of coca eradicated
to measure the contractor’s performance for purposes of determining the award fee.
As a result, there were weak incentives for good contractor performance because the
contractor was not primarily rewarded for achieving results.

The contract between USAID/Peru and Chemonics International, Inc. signed on March
17, 2004, contained a possible award fee of $5.1 million. The contract stated that,
performance measures for the achievement of annual targets against the number of
hectares eradicated and the number of clients who remain coca free are considered the
key measurements of success for the overall Alternative Development Program.
Progress against these two indicators would determine a significant portion of the
contractor’s award fee. USAID/Peru determined the award fee earned and payable
annually.

However, the award fee plan, developed five months after signing the contract, was
based primarily on subjective and qualitative factors instead of eradication results. It
was based on quality of product or service, timeliness of performance in eradication
targets and inputs, such as communications and behavior change, monitoring and
evaluation, land titling, customer service and business relations, and cost control. Of
these factors, the percentage weight allocated to the achievement of voluntary
eradication was relatively low (15 percent of the total award pool) in comparison to the
weight applied to the other factors.

The Mission did not use the contract as a reference in preparing the award fee plan.
Furthermore, mission staff were not comfortable with using objective measures like the
number of hectares of coca voluntarily eradicated to determine the award fee to be paid
to the contractor. They were more comfortable with rewarding the contractor based on
effort. As a result, there were weak incentives for good contractor performance because
the contractor was not primarily rewarded for achieving results.

   Recommendation No. 4: We recommend that USAID/Peru increase the weight
   assigned to achieving results (for hectares of coca eradicated and the number of
   clients who remain coca free) to at least 50 percent of the award fee pool.

Evaluation of Management Comments – In response to Recommendation No. 4,
USAID/Peru agreed with the recommendation and stated that the Award Fee Plan for
2006 and 2007 will stipulate that 50 percent of the award fee pool will be assigned to
meeting the eradication target and the number of clients who remain coca-free.
USAID/Peru considers it too late in the calendar year to change the Award fee Plan for
2005.


                                                                                      15
We consider that a management decision has been reached for Recommendation No. 4.
Determination of final action will be made by M/CFO/APC.

Targets for Voluntary Eradication
Were Not Properly Documented

Summary: It is important to the success of any program for program goals to be
unambiguous and expressed consistently, a principle that is reflected in the ADS. The
targets for voluntary coca eradication were significantly reduced but the Mission did
not document why the targets were reduced, when they were reduced, or the basis for
determining the revised targets. In addition, the contract, the performance monitoring
plan, and the award fee plan all showed different targets. This occurred because of
weak management by USAID/Peru. A lack of well established and documented
targets can contribute to poor program performance.

According to Automated Directives System (ADS) 203.3.8.4 Annual Report Operating
Unit Performance Assessment, the designation of targets must be fully documented in a
decision memorandum signed by the director or designee of the Operating Unit.
Furthermore, ADS 203.3.3 states that each indicator in a performance monitoring plan
“should include performance baselines and set performance targets that can
optimistically but realistically be achieved within the stated timeframe and with the
available resources.” Also, “targets should be ambitious, but achievable given USAID
(and other donor) inputs. Operating units should be willing to be held accountable for
achieving their targets. On the other hand, targets that are set too low are also not
useful for management and reporting purposes.” Beyond what is specifically stated in
the ADS, it is obviously important to the success of any program for program goals to be
unambiguous and expressed consistently.

According to the contract signed between USAID/Peru and Chemonics International, Inc.
on March 16, 2004, the target for voluntarily eradicating coca in Peru was 8,000
hectares per year for calendar years 2004 through 2007. USAID officials stated that, at
the time the contract was signed, it was estimated that there were 32,000 hectares of
coca in Peru and the Mission wanted to eradicate all of it during the life of the ADP
program. Therefore, the Mission simply divided the 32,000 hectares of coca by the four
years of the program to arrive at a target of 8,000 hectares to be voluntarily eradicated
each year. Nonetheless, this original target was always seen by mission officials as
unrealistic and overly aggressive. The target was subsequently reduced but the Mission
did not document why the target was reduced, when it was reduced, or the basis for
determining the revised targets. In addition, the contract, the performance monitoring
plan, and the award fee plan all showed different targets:

Table 3: Coca Eradication Targets per Mission Documents

 Mission Documents                                        Targets for     Targets for
                                                           CY 2004         CY 2005
 Contract between USAID/Peru and Chemonics                  8,000           8,000
 signed on March 16, 2004
 Performance monitoring plan dated June 2003 and             5,000           5,000


                                                                                      16
 Mission Documents                                           Targets for      Targets for
                                                              CY 2004          CY 2005
 revised September 2004
 Award fee plan signed on August 30, 2004 and draft             2,700            3,000
 award fee plan for calendar year 2005

This situation occurred because of weak management by USAID/Peru. We concluded
that neither the original nor the revised targets were established through any rigorous
process for determining what could realistically be achieved through the ADP program.
Moreover, given the differences between the contract, the performance monitoring plan,
and the award fee plan, it appeared to us that at least some of these documents were
not actually used to manage the program.

Targets that are ambiguous or that are not set at ambitious but realistic levels can
contribute to poor program performance. The Mission needs to establish targets that are
achievable, yet not set too low that they become irrelevant to program management.

   Recommendation No. 5: We recommend that USAID/Peru a) modify its contract
   with Chemonics International, Inc. to reflect the revised target, and b) ensure that
   the revised target is consistent among mission documents.

   Recommendation No. 6: We recommend that USAID/Peru establish voluntary
   eradication targets for calendar years 2006 and 2007 that are achievable and
   realistic, but not set too low that they become irrelevant to the program
   objectives.

Evaluation of Management Comments – In response to our draft report, USAID/Peru
agreed with Recommendation No. 5 and stated that a revised contract will be signed by
the contractor in the next 30 days and all Mission documents will be reviewed and revised
as needed within the next 60 days. A management decision has been reached for
Recommendation No. 5 and a determination of final action on this recommendation will
be made by the Audit Performance and Compliance Division (M/CFO/APC).

The Mission also agreed with Recommendation No. 6 and stated that it had established
contract targets for the number of hectares of coca voluntarily eradicated of 2,500
hectares and 500 hectares for calendar years 2006 and 2007, respectively. While
USAID/Peru and we are in agreement on the need to establish performance targets that
are achievable and realistic, but not set too low that they become irrelevant, we are not in
agreement on the levels to be established for the new targets.

If USAID/Peru’s proposed new targets are accepted, then the revised eradication targets
will be:
                                                                           2007
      2003            2004              2005              2006          (9 months)

    3,000              2,700              3,000              2,500              500
   hectares           hectares           hectares           hectares          hectares

In our judgment, the new revised targets for 2006 and 2007 are set too low and do not
meet the intent of our recommendation. In its comments on our draft report, USAID/Peru
noted that the last contract year will be an abbreviated one and that the contractor will


                                                                                           17
need to devote effort to contract closeout as well as ongoing activities. These are valid
considerations. Other considerations, though, would indicate that the targets for 2006
and 2007 should be set higher. First, most programs start slowly and build momentum as
the implementer gains experience and staff overcome learning curves. We believe it is
reasonable to expect that this would be the case with the ADP program. Second, as of
August 31, 2005, $59 million remained under the contract with Chemonics to pay for
activities under for the remaining 25 months of the program, a level of resources which
would appear sufficient to support a level of effort higher than what the proposed targets
envision. Third, implementation of the recommendations in this audit report – for
example, obtaining more effective support from the Government of Peru, developing a
more efficient method of targeting communities with high concentrations of coca,
establishing reasonable limits on investments in communities, obtaining counterpart
contributions from communities, and limiting administrative costs – should increase the
efficiency and effectiveness of program operations. All of these considerations lead us to
believe that program accomplishments should go up, not down, as the program
progresses. A management decision for Recommendation No. 6 can be reached when
USAID/Peru and we agree on the actions to be taken to address the recommendation.

Cash Payments Were Not Clearly Linked to
Sustainable Development and Were Susceptible to Fraud

Summary: According to USAID/Peru’s Alternative Development Strategy 2003-2007,
the ADP program was designed to create a basis for sustainable and legitimate
economic activity. Under the program, community members received a payment upon
signing an agreement to voluntarily eradicate coca. The payment was in the form of
cash or check and was distributed by Chemonics. These payments do not promote
sustainable income generation for the families. In addition, this type of payment is
susceptible to fraud because of the large amount of cash involved ($5.3 million),
because many individuals are involved with cash distribution, and because it is difficult
to determine if individuals belong to a community for purposes of the cash distribution.
The Mission used these payments as an incentive for the communities to participate in
the program. As a result, funds totaling $5.3 million were not directly linked to the
program goal of sustainable development and there is a possibility of fraud that may
result from these payments. In fact, Chemonics has acknowledged that the prospect
of receiving these payments often attracts non-community members and encourages
the arrival of relatives of community members, inflating rosters and forcing payments
to persons extraneous to the community. Moreover, in several coca measurement
reports, CADA officials reported that, ironically, several farmers thought that they
needed to grow more coca in order to qualify for the cash payments.

According to USAID/Peru’s Alternative Development Strategy 2003-2007, the ADP
program was designed to create a basis for sustainable and legitimate economic activity:
licit economic opportunities will be available through increased use of financial services,
improved economic infrastructure, and the establishment of a sustained natural resource
base.

However, the ADP program used cash payments totaling $5.3 million to community
members as an important incentive to voluntarily eradicate their coca. Furthermore,
these cash payments had little to do with sustainable income generation for families that
were formerly dependent on coca cultivation. Under the program, each community


                                                                                         18
member received cash payments totaling $180 in three installments: 20 percent when
the community signed an agreement with DEVIDA, 30 percent upon eradicating 30
percent of the community’s coca fields, and the remaining 50 percent when all coca had
been eradicated. Each head of household in that community, whether or not he or she
grew or owned coca, would be entitled to receive the cash payments. On the day of
payment, Chemonics distributed payments (in cash or check) to the community
members. If the member was not present at the time of the distribution, the municipal
leader of the community received the payment on their behalf and distributed the
payment to them at a later date. If the payment was in the form of a check, the check
could be cashed at the Chemonics’ regional office. If an individual was unable to go to
the regional office, he or she could assign other family members or friends to collect the
money.

The payments were included in the design of the program as an incentive for the
communities to participate in the program. However, subsequently some mission
officials expressed concerns over the administration of the cash payment program and
had expressed the desire to eliminate the cash payment program to the extent possible.

As a result, funds totaling $5.3 million were not directly linked to the program goal of
sustainable development and there is a possibility of fraud that may result from these
payments. In fact, Chemonics has acknowledged in a recent quarterly progress report
to USAID that the prospect of receiving these payments often attracts non-community
members or encourages the arrival of community relatives, which inflates rosters and
forces making payments to persons extraneous to the community. Moreover, in several
coca measurement reports, CADA officials reported that, ironically, several farmers
thought that they needed to grow more coca in order to qualify to receive the cash
payments.

   Recommendation No. 7: We recommend that USAID/Peru develop a plan to
   transition the cash payment program into a program that promotes more
   sustainable income generation.

Evaluation of Management Comments – USAID/Peru agreed with the conclusion that
resources used for cash payments could be better directed to economic infrastructure
projects or the development of licit productive activities. However, nearly half of the
program clients surveyed indicated that they would not have participated in the program
without the incentive provided by the cash payments. Therefore, the Mission stated that
it was in the process of trying to phase out the cash payments so that the resources can
instead be invested in sustainable development activities.

The Mission was under the impression that there have been no indications of fraud
involving the cash payments. This is not correct. In fact, Chemonics reported to the
Mission in its quarterly report for April – June 2005 that “The prospects [sic] of receiving
bonos [cash payments] often attracts non community members or encourages the arrival
of community relatives, which inflates rosters and forces paying of bonos to persons
extraneous to the community.”

The Mission also disputed CADA’s reports that farmers thought they needed to grow
more coca in order to receive the cash payments, noting that the payments are
supposed to go to all heads of family in a community, whether each individual family is



                                                                                         19
involved in coca production or not. The Mission is correctly describing how the cash
payments are supposed to work, but there is fairly widespread misunderstanding of this
fact. During our audit we encountered evidence that CADA officials, individual farmers,
and at least one mayor believed that individuals had to be involved in coca production in
order to receive the payments.

A management decision will be reached for Recommendation No. 7 when USAID/Peru
has developed a firm plan of action and a date for implementing the recommendation.

Infrastructure Projects Were Not
Delivered to Seven Communities

Summary:       According to the contract between USAID/Peru and Chemonics
International, Inc. signed on March 17, 2004, the contractor needs to “maintain
capability, via agreements and subcontracts, to promptly and efficiently deliver the
benefits included in all community agreements.” However, the program did not deliver
infrastructure projects promised to communities because the cost would have been too
high and because of environmental concerns. The program focused on signing
agreements with communities to meet voluntary coca eradication targets rather than
determining whether infrastructure projects promised to communities could actually be
delivered. Also, the program negotiators were not given clear boundaries on what
could be promised to communities and did not have the expertise on the
environmental viability and the estimated cost of infrastructure projects. As a result,
community expectations were not met and the credibility of the program was damaged.

According to the contract between USAID/Peru and Chemonics, the contractor needs to
“maintain capability, via agreements and subcontracts, to promptly and efficiently deliver
the benefits included in all community agreements.” In the District of Chazuta, the
program signed agreements with 14 communities to deliver infrastructure projects.

Chemonics agreed to rehabilitate roads for four of these communities, which would
facilitate transporting their agricultural products to markets. The communities were only
accessible by boat. However, Chemonics did not rehabilitate the roads because of
environmental concerns and a lack of resources.               According to one estimate,
rehabilitating the roads would have cost about $3 million. Therefore, more than a year
after signing the agreements, Chemonics had to amend the agreements canceling these
infrastructure projects and replacing them with other infrastructure projects (a potable
water system, a medical post, a foot bridge, and sports courts) valued at $293,123.

In addition, the program rehabilitated a road at a cost of about $570,000 for three other
communities in the District of Chazuta. However, the communities presumed that
stream crossings would be built to cross the four large streams dissecting the road at
various points. These streams are impassable during the months of heavy rains
(December through March). Stream crossings were not built due to the high cost. In
addition to the drawback of not reaching a clear understanding with the communities on
whether or not stream crossings would be built, and therefore risking not meeting their
expectations, we question the usefulness of spending $570,000 to rehabilitate a road
that can not be used four months out of the year.




                                                                                       20
                                                              Photograph taken by an OIG
                                                              auditor on September 1, 2005
                                                              of a stream that cuts across a
                                                              road that was rehabilitated
                                                              under the ADP program,
                                                              rendering it impassable during
                                                              the rainy season, in Chazuta,
                                                              Peru.

The program focused on signing agreements with communities to meet coca eradication
targets rather than determining whether infrastructure projects promised to communities
could be delivered. Also, the program negotiators were not given clear boundaries on
what could be promised to communities and did not have the expertise on the
environmental viability and the estimated cost of infrastructure projects.

As a result of the situations described above, community expectations were not met and
the credibility of the program was damaged. This could jeopardize the program goal of
convincing communities to abandon the coca economy and make the transition to a licit
economy free of coca.

   Recommendation No 8: We recommend that USAID/Peru a) ensure that the
   program can deliver infrastructure projects before signing agreements with
   communities, b) provide clear boundaries to its implementing partners
   (Chemonics International, Inc. and the Government of Peru’s counter-narcotics
   agency (DEVIDA)) on what can be promised to communities, and c) modify the
   standard agreements with communities to include language stating that the
   infrastructure projects can only be delivered after necessary environmental
   assessments are performed.

Evaluation of Management Comments – USAID/Peru agreed with Recommendation
No. 8 and stated that as of January 2005, the program had already implemented a new
standard agreement with the communities that states that all infrastructure projects are
subject to an environmental assessment prior to implementation. USAID/Peru has also
provided the contractor with explicit guidance as to what kinds of projects are allowable
in these negotiations. A technical information sheet for every possible type of
infrastructure project is included in the negotiation packet and includes information as to
type and scope of the project, program and community commitments under the
agreement, scheduling and any conditions precedents needed to initiate the project.

Based on the Mission’s comments and the supporting documentation provided, final
action has been taken on Recommendation No. 8.



                                                                                         21
Infrastructure Projects Were Not
Directly Linked to Alternative Development

Summary:        According to the contract between USAID/Peru and Chemonics
International, Inc. signed on March 17, 2004, one of the purposes of the voluntary coca
eradication model was to “maintain the communities permanently free of illicit coca,
while connecting them to sustainable development opportunities.” However, the
program financed some infrastructure projects that met recreational and/or aesthetic
needs but did not contribute to the program goal of developing licit economic activities.
For example, the program financed the construction of sports courts in two
communities and improved a town plaza in another community. The program did not
establish clear boundaries on the types of infrastructure works that contributed to the
program goal of generating licit economic activities. Infrastructure projects that were
not linked to licit economic activity were financed because Chemonics did not establish
clear boundaries on the types of infrastructure works that that were permissible. In
addition, USAID/Peru did not insist that Chemonics adhere to the program purpose.
As a result, the program spent $119,000 for purposes that did not contribute to
sustainable development activities.

According to the contract between USAID/Peru and Chemonics International, Inc. signed
on March 17, 2004, one of the purposes of the voluntary coca eradication model was to
“maintain the communities permanently free of illicit coca, while connecting them to
sustainable development opportunities at the local, regional, and national levels.” Once
a community signed a voluntary coca elimination agreement, immediate and short-term
activities would be designed to create temporary employment and income opportunities
for participating community members, which included economic infrastructure (road
rehabilitation and small bridges) and social infrastructure (construction of classrooms,
health posts, and water and sanitation facilities), and small on-farm diversified productive
activities. Subcontracts signed by Chemonics also indicated that infrastructure projects
would further the program goal of encouraging licit economic activity.

However, the program financed some infrastructure projects that met recreational and/or
aesthetic needs but did not contribute to the program goal of developing licit economic
activities. For example, included in the 16 infrastructure projects provided to
communities in the District of Chazuta were the construction of sports courts in two
communities and the improvement of a town plaza in another community at a cost of
approximately $119,000 for all three projects.




                                             Photograph taken by an OIG auditor on August
                                             31, 2005 of a sports court constructed for a
                                             community in Achinamiza, Peru.



                                                                                         22
Infrastructure projects that were not linked to licit economic activity were financed
because Chemonics did not establish clear boundaries on the types of infrastructure
works that that were permissible. In addition, USAID/Peru did not insist that Chemonics
adhere to the program purpose. The Mission was justifiably concerned with showing
results, but in our opinion this sometimes led mission staff to make incorrect judgments
about what types of investments were permissible under the program. As a result, the
program spent $119,000 for projects that did not contribute to sustainable economic
development.

   Recommendation No 9: We recommend that USAID/Peru verify and document
   that Chemonics establishes and enforces policies that describe the types of
   infrastructure works that contribute to the program goal of generating licit
   economic activities and therefore may be financed with program funds.

Evaluation of Management Comments – In response to Recommendation No. 9,
USAID/Peru stated that it agrees with the recommendation and has implemented a new
negotiation process that will ensure that only infrastructure projects that contribute to the
program goal of generating licit economic activities will be implemented under the
program. The Mission stated that, in January 2005, it introduced a new agreement to be
used in negotiations with the communities. According to the Mission, the agreement
includes guidelines/checklists for community liaison workers to use when prioritizing
infrastructure projects and authorizes six types of projects that can be negotiated in the
agreement. They include: (i) educational infrastructure, (ii) water and sewage, (iii)
health infrastructure, (iv) economic infrastructure, (v) electrification, and (vi) road
rehabilitation and bridge construction. If a community or group of communities requests
a project that is not part of the approved list, the contractor must receive USAID/Peru
approval prior to negotiating with the communities.

In reviewing the list of authorized types of infrastructure paraphrased/summarized by the
Mission, we noted one category in the actual list that is not included in the Mission’s
paraphrase/summation, which is “multiple use premises.” This was the same category
that Mission officials relied on during our audit in attempting to justify the construction of
sports courts and the rehabilitation of a town plaza. Therefore, we do not believe that
this list would preclude the construction of similar projects during the remainder of the
project.

A management decision on Recommendation No. 9 can be recorded once the Mission
reaches a firm plan of action, with target dates, for implementing the recommendation.

Infrastructure Projects Did Not
Include Maintenance Plans

Summary:     All USAID development activities are required to be sustainable.
According to USAID’s Strategy for Sustainable Development, dated October 4, 2000,
“Sustainable development is characterized by economic and social growth that does
not exhaust the resources of a host country…Development is ‘sustainable’ when it
permanently enhances the capacity of a society to improve its quality of life.”
However, the infrastructure projects provided under the program did not contain
maintenance plans to help ensure that the projects continued to function as intended.


                                                                                           23
Specifically, the contracts between Chemonics International, Inc. and its sub-
contractors did not require a maintenance plan. Furthermore, the agreements
between the Government of Peru and the communities to voluntarily eradicate coca in
exchange for developmental assistance did not require communities to develop and
implement a maintenance plan. The Mission focused on other priorities and
overlooked the need to include maintenance plans in the agreements with
subcontractors and the communities. As a result, the infrastructure projects could
encounter major system failures.

All USAID development activities are required to be sustainable. According to USAID’s
Strategy for Sustainable Development (Reference to ADS Chapter 200), dated October
4, 2000, “Sustainable development is characterized by economic and social growth that
does not exhaust the resources of a host country…Development is ‘sustainable’ when it
permanently enhances the capacity of a society to improve its quality of life.”
Community agreements should clearly define a maintenance plan to ensure that
infrastructure projects continue to function as intended.

However, none of the 511 infrastructure projects provided under the program included
maintenance plans to help ensure that the projects continued to function as intended
and provide lasting benefits to communities. Neither the agreements between DEVIDA
and the communities nor the subcontracts between Chemonics and its sub-contractors
require that such maintenance plans be developed. USAID/Peru itself focused on other
priorities and overlooked the need to include maintenance plans in the agreements with
the communities.

Without regular maintenance, infrastructure projects may experience failures. For
example, the community of Ricardo Palma received a potable water system under the
program at a cost of $77,516. During our site visit, we noted that the system was not
working because the system was clogged with debris. The community had not
maintained the water system because they had not received any maintenance plans or
training on how to maintain the water system.




                                                           Photo taken by an OIG auditor
                                                           on August 31, 2005 of a
                                                           community     water    tap    in
                                                           Ricardo Palma, Peru.        The
                                                           water system in Ricardo Palma
                                                           was not functioning at the time
                                                           of our visit.




                                                                                        24
   Recommendation No 10: We recommend that USAID/Peru ensure that a)
   community agreements require communities to develop and implement
   maintenance plans, b) Chemonics helps communities to develop the plans, and
   c) the potable water system in Ricardo Palma, Peru is repaired.

Evaluation of Management Comments – In response to Recommendation No. 10,
USAID/Peru mentioned that all future infrastructure work will include an implementation
plan for a community maintenance committee, and the contractor will be responsible for
the organization and training of this committee. The deliverable under these sub-
contracts will be a viable maintenance plan that the community agrees to implement. A
sub-contract with a local NGO has been in place since June 1, 2005, and its scope of
work includes the training and implementation of the maintenance committees. The
community shall assume responsibility for the sustainability of the committee and the
infrastructure once the infrastructure work is officially transferred to the community. An
Alternative Development team member is now specifically charged with following up on
the maintenance committees and maintenance plans.

Furthermore, the Mission stated that the potable water system in Ricardo Palma has
been repaired and is currently functioning.

Based on the Mission’s response, a management decision has been reached.
Determination of final action will be made by M/CFO/APC.

Were USAID/Peru’s Alternative Development Program activities
managed in an efficient manner?
USAID/Peru’s ADP activities were not managed in an efficient manner. The sections
below describe cases where Chemonics continued to provide benefits to communities
that had stopped complying with their eradication agreements and also describe a need
to limit benefits to communities that have not yet eradicated their coca, a need to bring
the benefits provided to communities into a more reasonable relationship with the
amount of coca eradicated by the communities, and a need to better control
administrative costs associated with the program.

Benefits to Non-Compliant
Communities Were Not Suspended
Summary:       According to the contract between USAID/Peru and Chemonics
International, Inc., “the contractor would oversee the implementation of activities and
suspend activities and notify USAID/Peru when communities were not compliant.”
Through various written communications with Chemonics, USAID/Peru had requested
Chemonics to suspend activities upon notice that communities were non-compliant.
However, we noted several cases where benefits (projects) had not been suspended
for communities that were determined non-compliant.           Moreover, Chemonics
continued to enter into sub agreements to provide benefits to the communities for
periods of three to nine months after the communities were determined non-compliant.
Benefits provided to communities after they were determined non-compliant totaled
$225,037, according to information provided by Chemonics. This occurred because
Chemonics hoped to persuade the non-compliant communities to reverse their


                                                                                       25
decisions and begin to comply again with their voluntary eradication agreements, and
also because of a lack of coordination and communication between the contractor and
its subcontractors. As a result, $225,037 of U.S. Government funds were spent for
ineligible purposes.

Under the Alternative Development Program, the contractors, together with the
communities, identified immediate and short-term development activities that were
included as benefits under the agreement to voluntarily eradicate coca. The benefits
provided under these agreements included a small upfront payment, income-generating
substitute crops, and community infrastructure. According to the contract between
USAID/Peru and Chemonics International, Inc., the contractor would oversee the
implementation of activities and suspend activities and notify USAID/Peru when
communities were not compliant (communities were determined non-compliant when
they rejected the voluntary eradication program by failing to meet eradication targets
established in the community agreements). USAID/Peru had requested in writing that
Chemonics suspend activities upon notice that the communities had become non-
compliant.

However, we noted several cases where benefits (projects) had not been suspended for
communities that were determined to be non-compliant. Out of the 24 communities
involved in the project that were determined to be non-compliant, 13 continued to
receive benefits for an additional one to eleven months. Moreover, Chemonics
continued to enter into new sub-agreements to provide benefits to the communities even
after the communities were determined non-compliant.             Benefits provided to
communities after they were determined to be non-compliant total $225,037, according
to information provided by Chemonics.

Chemonics was reluctant to terminate the benefits because they had hoped to reverse
the decisions made by communities that had opted to reject the voluntary eradication
program. They were not successful, but continued to fund the projects for several
months after the community rejected the program. A lack of coordination and
communication between Chemonics and its subcontractors also contributed to this
situation. As a result, $225,037 of U.S. government funds were spent for ineligible
purposes.

   Recommendation No. 11:       We recommend that USAID/Peru make a
   management decision with regard to the ineligible questioned costs of $225,037
   and recover from Chemonics International, Inc. the amounts determined to be
   unallowable.

Evaluation of Management Comments – In response to this finding and
recommendation, USAID/Peru stated that investigations into the matter revealed that (1)
Chemonics did incur some costs in communities that were non-compliant but these
costs related to closeout activities or final attempts to persuade communities to begin
complying with their eradication agreements and (2) Chemonics’ accounting system
sometimes allocated costs to non-compliant contributions based on pre-determined
percentages even though no costs were actually being incurred in those communities.

Regarding the first point, we do not agree that the only costs incurred in non-compliant
communities were closeout costs or final attempts to persuade communities to comply
with their agreements. This assertion is contradicted by the fact that Chemonics entered


                                                                                     26
into new subcontracts to provide benefits to communities after they became non-
compliant. Examples follow:

Community                                   New Sub-Contracts After Communities
                                                    Became Non-Compliant
                                             Infrastructure         Productive
                                               Activities            Activities
Sevite Baja                                                                     $332
Miraflores                                                                   $11,627
Pampa Aurora                                                                 $11,627
Paterine                                                                      $5,823
Porvenir                                                                      $5,425
Quillabamba                                                                   $5,425
San Jose                                                                      $8,927
Santa Rosa De Lima                                                            $5,823
Paquichari                                                                    $2,591
Quintiarina Alta                                        $18,523               $5,425
Totals                                                  $18,523              $63,025

The second point raised by the Mission, namely that Chemonics’ accounting system
includes incorrect information, may be correct. If the Mission determines that the
information in the system was incorrect, then this should be reflected in the Mission’s
management decision on Recommendation No. 11.

A management decision for Recommendation No. 11 can be recorded when the
contracting officer determines the amount, if any, to be recovered from Chemonics.

Benefits Should Be Limited Until
Coca Is Completely Eradicated

Summary: The program provided benefits to the communities immediately after
signing the agreements with the communities, even though there was no assurance
that communities would comply with the agreements. As of August 31, 2004, the
program invested $1.6 million in communities that later rejected the program and
decided not to voluntarily eradicate their coca. It would be more prudent to limit
benefits at the outset to limit the risk of spending too much in communities that later
decide not to comply with their voluntary eradication agreements. By providing the
benefits immediately upon signing an agreement with the communities, the program
was able to quickly establish credibility with the affected communities, and, as a result,
encourage or entice other communities to participate in the program. However, not
limiting the benefits to the communities until they have completely eradicated their
coca fields has resulted in $1.6 million of U.S. Government funds spent for 24
communities that have rejected the program.

The ADP program worked with community leaders and potential program beneficiaries
to encourage communities to commit to voluntary coca eradication. Once the
communities signed an agreement to voluntarily eradicate their coca, the program
entered into local sub-contracts and grants to implement the agreed-to-activities
stipulated in the agreements with communities. These activities included construction of


                                                                                         27
social and economic infrastructure, and technical assistance to develop sustainable
economic activities as alternatives to coca production. It would be prudent to limit
benefits at the onset of signing agreements with the communities to avoid the risk of
spending too much on a community that may reject the program.

The program provided these benefits to the communities immediately after communities
signed voluntary eradication agreements, even though there was no assurance that
communities would comply with the agreements by actually eradicating their coca. In
fact, as of August 31, 2005, the program invested $1.6 million in 24 communities that
ultimately rejected the program and decided not to voluntarily eradicate their coca.

By providing the benefits immediately upon signing an agreement with the communities,
the program was able to quickly establish credibility with the affected communities, and
as a result, encourage or entice other communities to participate in the program.
However, not limiting the benefits to the communities until they have completely
eradicated their coca fields has resulted in $1.6 million of U.S. Government funds being
spent in 24 communities that have rejected the program.

   Recommendation No. 12: We recommend that USAID/Peru limit benefits to
   communities until the communities completely eradicate their coca fields.

Evaluation of Management Comments – USAID/Peru generally agreed with this
recommendation; however, the Mission stated that, as the program moves into more
“hard-core” areas (i.e. communities that depend on coca for a larger portion of their
overall income), where there is much lower level of trust, USAID must retain the flexibility
to allow benefits to be provided in a phased manner, as there will be communities that
only sign up for the program under these conditions.

A management decision for Recommendation No. 12 can be recorded when USAID/Peru
develops a firm plan of action with target dates for implementing the recommendation.

Cost per Hectare Was High

Summary: The planned cost per hectare of coca eradicated under the second contract
with Chemonics was $2,187. Chemonics now considers that a cost of $2,000 per
hectare would be reasonable. However, the actual cost per hectare has averaged
approximately $4,484, with a range from $269 to $250,629 per hectare. The cost per
hectare was high because of an ineffective strategy for targeting communities with
large amounts of coca. Also, the program did not establish a standard set of benefits
or a limit on how much to spend for each community that signed the voluntary
eradication agreements. The benefits provided to communities varied from one
community to the other, depending on the negotiations that took place between the
contractor’s negotiators and community leaders. Finally, the ADP program did not
require counterpart contributions (e.g., contributions of unskilled labor, materials, etc.)
from the communities that participated in the program. The high cost per hectare of
coca eradicated limits the program’s efficiency and ultimately its effectiveness, since
fewer resources are available to pursue program objectives.

When USAID/Peru entered into its second contract with Chemonics in March 2004, the
Mission expected to invest $70 million directly in communities that signed voluntary


                                                                                          28
eradication agreements and expected to eradicate 32,000 hectares of coca during the
contract period. This corresponds to a planned cost per hectare eradicated of $2,187.
Chemonics now considers that a cost of $2,000 per hectare would be reasonable.

However, the actual cost per hectare has averaged approximately $4,484, with a range
from $269 to $250,629 per hectare. Below is a summary of the direct investments in the
385 communities assisted by ADP program, not including the administrative costs of the
contractor:

Table 4: Direct Investments in ADP Communities

    Cost per Hectare                   Total Invested         Number of Communities
    $0                                                 $05               7
    $269 - $999                                   $730,255              17
    $1,000 - $5,000                            $11,800,412             117
    $5,001 - $10,000                            $8,685,065              85
    $10,001 - $20,000                           $8,653,440              79
    $20,001 - $40,000                           $6,081,474              53
    $40,001 - $100,000                          $2,136,909              20
    $100,001 - $250,629                           $598,122              7
    Total                                      $38,685,677             385

The cost per hectare was higher than planned because of an ineffective strategy for
targeting communities with large amounts of coca (as previously discussed above in the
section beginning on page 11). Also, the program did not establish a standard set of
benefits or a limit on how much to spend for each community that signed the voluntary
eradication agreements. The benefits provided to communities varied from one
community to the other, depending on the negotiations that took place between the
contractor’s negotiators and community leaders. Finally, the ADP program did not
require counterpart contributions (e.g., contributions of unskilled labor, materials, etc.)
from the communities that participated in the program. The Mission was under
considerable pressure to show results under the ADP program, and therefore was more
focused on expanding the program to new communities than on controlling costs.

The high cost per hectare of coca eradicated limits the program’s efficiency and
ultimately its effectiveness, since fewer resources are available to pursue program
objectives. Also, inconsistencies in the benefits provided to different communities could
create jealousies and dissatisfaction among communities in the program that have
received fewer benefits than neighboring communities.

      Recommendation No. 13: We recommend that USAID/Peru a) establish a
      reasonable limit on the investments made in the communities, and b) verify
      compliance with the limits.

      Recommendation No. 14: We recommend that USAID/Peru require communities
      to contribute to infrastructure projects by entering into cost sharing agreements
      with communities.
5
 Costs have not been incurred in these new communities that have just signed agreements to
participate in the program.



                                                                                          29
Evaluation of Management Comments – In response to our draft report, USAID/Peru
agreed with Recommendation No. 13 and stated that a limit of $2,000 per hectare of coca
voluntarily eradicated will be established and strictly monitored by the contractor.
Accordingly, a management decision has been reached. Determination of final action will
be made by M/CFO/APC.

In commenting on Recommendation No. 14, USAID/Peru agreed with the
recommendation and is now requiring local governments to share costs of some
infrastructure projects. A management decision will be made when the Mission has
established a firm plan of action to address cost sharing contributions in future
agreements with communities.

Contractor Administrative
Costs Should Be Reduced

Summary: Cost-type contracts, like the contracts signed with Chemonics, involve
considerable cost risk to the U.S. Government, and closer monitoring of costs by
USAID is needed to mitigate this risk. To date, Chemonics has spent $38 million for
administrative costs, or 41 percent of total expenses to date. The majority of these
costs were for contractor salaries and fringe benefits. USAID/Peru has expressed
concern over these costs and, as a result of the Mission’s concerns and also its own
assessment of the level of staff it needs to implement the program, Chemonics intends
to reduce the number of local staff by 39 percent from 220 to 135 in early 2006 and
also plans to replace four third country nationals with local hires by the end of 2005. In
addition, we noted six instances (out of a total of ten reviewed), where local staff were
given additional 10 percent salary increases within three to six months after USAID
had already approved initial salary increases of 5 to 25 percent. The additional
increases were given for reasons that were not reasonable in USAID/Peru’s opinion or
in ours. As a result, we are classifying the $2,487 spent on these salary increases as
ineligible costs. Both Chemonics and the Mission were preoccupied demonstrating
results under the program instead of controlling costs. As a result, the efficiency of the
ADP program was impaired.

While USAID operating policies and procedures in the ADS do not specifically require
USAID missions to monitor the efficiency of program operations, this is inherent in the
fiduciary duty that USAID has for the funds entrusted to it. Cost-type contracts, like the
contracts signed with Chemonics, involve considerable cost risk to the U.S. Government,
and closer monitoring of costs by USAID is needed to mitigate this risk.

To date, of the $93 million spent by Chemonics under both ADP program contracts,
Chemonics administrative costs absorbed approximately 41 percent of contract
expenditures. That is, of the $93 million spent so far, approximately $38 million was
spent on administrative costs. The following table provides more detailed information on
how the $93 million was spent:




                                                                                         30
Table 5: Total Contract Expenses as of August 31, 2005

 Category                                Expenditures      Expenditures         Total
                                            Under             Under          Expenditures
                                          Contract I        Contract II       Contract I
                                                                                and II
 Supervisory and Administrative Cost
    Home and Field Office Expense            $8,618,027      $14,669,436       $23,287,463
    Monitoring and Evaluation Cost            1,627,719        1,427,810         3,055,529
    Indirect Costs (G&A, Overhead)            4,372,222        4,734,623         9,106,845
    Fees                                      1,946,309          783,230         2,729,539
    Subtotal                                $16,564,277      $21,615,099       $38,179,376
 Direct Benefits
    Infrastructure Projects                  14,240,778       12,162,298        26,403,076
    Productive Projects                       7,929,989        4,123,648        12,053,637
    Bonus to Communities                      4,305,723        1,060,345         5,366,068
    Environmental Management                          -           73,358            73,358
    Policy Support                              343,755           11,301           355,056
    Communications                            1,884,774        1,704,961         3,589,735
    Other Subcontracts                        4,063,831        3,359,564         7,423,395
    Subtotal                                $32,768,850      $22,495,475       $55,264,325
 Total                                      $49,333,127      $44,110,574       $93,443,701

The majority of the administrative costs consisted of salaries and fringe benefits.
Chemonic’s staffing structure included four U.S. hires, four Third Country Nationals, and
220 local hires. The Mission has expressed concern over the high costs associated with
salaries and benefits, specifically with respect to the justification for hiring third country
nationals instead of local hires for some positions and the justification for the size of
Chemonics’ Lima office. In evaluating Chemonics’ performance to calculate the amount
of award fee to be paid to Chemonics at the end of the first contract year, USAID/Peru
did not award Chemonics any points for cost control. As a result of the Mission’s
concerns and also its own assessment of the level of staff it needs to implement the
program, Chemonics intends to reduce the number of local staff by 39 percent from 220
to 135 in early 2006 and also plans to replace four third country nationals with local hires
by the end of 2005.

In addition, we noted six instances (out of a total of ten reviewed), where local staff were
given additional 10 percent salary increases within two to seven months after USAID
had already approved initial salary increases of 5 to 25 percent. The additional
increases were given for reasons that were not reasonable in USAID/Peru’s opinion or in
ours. For example, several individuals were given salary increases because of a change
in their responsibilities just months after USAID/Peru had already granted increases for
changes in responsibilities and other factors. As a result, we are classifying the $2,487
spent on these salary increases as ineligible costs.

The administrative costs associated with the ADP program were not properly controlled,
in our opinion, because both Chemonics and the Mission were preoccupied
demonstrating results under the program instead of controlling costs. The absence of
any discussion of the need to monitor the efficiency of program operations in the ADS
may have been a contributing factor as well.


                                                                                           31
Although Chemonics had already decided to reduce its number of employees, since no
analysis was performed by USAID/Peru to determine correct personnel levels or
salaries, USAID still does not have reasonable assurance that planned changes will be
sufficient to ensure efficient program operation.

   Recommendation No 15: We recommend that USAID/Peru a) assess the level
   of staffing and salaries needed to implement the program, and b) monitor and
   ensure that Chemonics International, Inc. will transition its international staff as
   intended.

   Recommendation No. 16:       We recommend that USAID/Peru make a
   management decision with regard to the ineligible questioned costs of $2,487
   and recover from Chemonics International, Inc. the amounts determined to be
   unallowable.

Evaluation of Management Comments – In response to our draft report, USAID/Peru
agreed with Recommendation No. 15. A management decision will be recorded for this
recommendation when the Mission develops a firm plan of action, with target dates, for
implementing the recommendation.

In commenting on Recommendation No. 16, USAID/Peru agreed with the
recommendation and will pursue the issue with the contractor. A management decision
will be made for Recommendation No. 16 upon contracting officer’s determination of the
amount, if any, to be recovered from Chemonics.




                                                                                          32
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork for this audit was
performed in Peru from August 22 to September 8, 2005, at USAID/Peru, Chemonics
International, Inc., various contractor regional offices, governmental offices, and selected
program communities.

As part of its fiscal year 2005 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions: (1) Were USAID/Peru’s
Alternative Development Program activities on schedule to achieve planned sustainable
results? (2) Were USAID/Peru’s Alternative Development Program activities managed
in an efficient manner?

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Peru management controls related to the Alternative Development Program.
The significant USAID/Peru controls identified included preparing a performance
monitoring plan, reviewing contractor performance and financial reports, conducting site
visits, and maintaining regular contact with the contractor.

Out of a total 385 communities, we judgmentally selected 10 communities to conduct
site visits. We focused our selection on communities that had large amounts of hectares
of coca eradicated. We determined that a judgmental sample was reasonable because
of the nature of the conditions in the field, the distance from one community to the other,
and security concerns. The 10 communities included Achinamiza, Ricardo Palma,
Llucanayacu, Banda de Chazuta, Shepte, Miraflores, Dos Unidos, Mojarras, Santa Ines,
and Alto El Sol, all within the region of Tocache (one of the four main regions of the
program). We were unable to conduct site visits in the other three main regions due to
security concerns. In these 10 communities, we observed all 10 infrastructure projects
and 8 agricultural projects in those communities to determine if the projects were
functioning as intended. Total infrastructure projects for the program were 511. The 10
communities visited included 1,581 families out of a total of 32,756 families participating
in the program as of August 31, 2005.

The audit primarily covered the short-term community support activities managed
primarily through two contracts with Chemonics International, Inc. The first contract was
signed in October 2002 for $50 million for 18 months, and the follow-up contract was
signed in March 2004 for $102 million for four years (from March 2004 through
September 2007). As of August 31, 2005, $93 million had been spent on both contracts.
Interviews were conducted with mission officials, Chemonics, Government of Peru
officials, State Department officials, and beneficiaries. We also examined program
documentation provided by these parties.




                                                                                         33
                                                                           APPENDIX I


Methodology
To answer the first question described in the scope section, we traced actual results
reported by Chemonics International, Inc. to supporting documentation generated from
the monitoring and evaluation database developed by Chemonics. We also verified
actual results with community leaders during the site visits we conducted at the 10
communities mentioned in the scope section. In addition, we reviewed USAID/Peru’s
performance monitoring plan, USAID/Peru’s 2005 annual report, the contracts between
USAID/Peru and Chemonics, Chemonics’ annual report dated March 2005, Chemonics
progress reports, the monitoring and evaluation system developed by Chemonics, and
the award fee plan prepared by the Mission. Based on the performance monitoring plan
and the contract agreement between USAID/Peru and Chemonics, we (in conjunction
with Chemonics and USAID/Peru) selected the four main indicators of the program to
determine if the planned results were being achieved. We interviewed the Alternative
Development Program director, cognizant technical officer, contractor officer, monitoring
and evaluation specialist, and other Alternative Development Program team members.
We also interviewed officials from Chemonics International, Inc., DEVIDA (Government
of Peru’s counter-narcotics agency), CADA (Government of Peru entity that measures
the coca area before and after eradication), NAS (State Department’s Narcotics Affairs
Section), and beneficiaries in the selected communities.

To answer the second question described in the scope section above, we interviewed
mission officials and Chemonics officials. For the 24 non-compliant communities
reviewed, we compared the dates the communities were determined non-compliant to
the dates the benefits had ceased for those communities. We also reviewed the total
funds spent for those communities before and after it was determined non-compliant.
For the amount spent per hectare, we compared the total benefits provided to the
communities to the number of hectares eradicated in each community for all 385
communities that participated in the program. In addition, we reviewed the positions and
salaries for all 8 U.S. and third country nationals and 10 local hires to determine if the
salaries were reasonable.

In answering the audit questions (audit objectives), we considered exceptions totaling 5
percent or more of the cases tested to represent significant issues meriting reporting.




                                                                                       34
                                                                         APPENDIX II



MANAGEMENT COMMENTS
November 14, 2005

MEMORANDUM

FOR:           Regional Inspector General/San Salvador, Timothy E. Cox

FROM:          USAID/Peru Director, Hilda Arellano /s/

SUBJECT:       Response to Draft Audit Report on Alternative Development Program


SUMMARY RESPONSE TO DRAFT AUDIT

Although the draft audit report contains many useful recommendations for strengthening
the Mission’s Alternative Development Program, USAID/Peru disagrees with some of the
overarching conclusions of the report. As highlighted in the report, the Program could
indeed have been managed more cost-effectively in its early stages. In most cases, the
Mission had identified the shortcomings prior to the audit visit and has for some time
been making changes in program implementation to improve efficiencies. But the more
fundamental conclusion of the report, that the program is not on schedule to achieve
sustainable results, is based on misconceptions of the key indicators of success of the
program.

The first section of the audit report displays a table that lists the following as “Main
Indicators”:

       1.   Number of Hectares of Illicit Coca Voluntarily Eradicated
       2.   Number of Program Clients Who Remain Coca Free
       3.   Total Hectares of Illicit Coca in Peru
       4.   Population Involved in Coca Production

A footnote to the table states that “(t)hese were the four main performance indicators
from the Alternative Development Program (ADP) and were considered by USAID/Peru
and Chemonics (and us) to be the key indicators of success for the overall program.”
Although, as the audit report points out, the Chemonics contract does include the third
and fourth indicators mentioned above as measures of success of the program, the
contract does specify (page C-11) that the first two indicators above, those focusing on
auto eradication, will be the primary factors on which contractor performance will be
judged.

The Alternative Development Program was designed to achieve the Mission’s Special
Objective “Sustained Reduction of Illicit Coca Crops in Target Areas of Peru (emphasis
added)”. The ADP, with its focus on auto eradication in geographically limited areas, is
just one of the three components of the overall Embassy/Peru counter-narcotics
strategy. (The other major components are, of course, interdiction and programmed
eradication.) The embassy-wide strategy, bringing all USG resources to bear, seeks to
impact on the third and fourth, national-level indicators listed above. USAID/Peru
strategic documents, in support of the overall Embassy strategy, included these
indicators in our results framework, and they also appeared in the Chemonics contract.

                                                                                     35
                                                                               APPENDIX II

The statistics for “Total Hectares of Illicit Coca in Peru”, along with its corollary indicator
“Number of Families Involved in Coca Production” (#s 3 and 4 above), rise and fall
dramatically to a great extent due to macro factors such as pressure applied to the illicit
coca industry in other coca producing countries in the region (the “balloon effect”) and
regional prices for coca leaf in general. USAID/Peru strives to implement its ADP
towards achievement of the Mission’s SPO and ultimately the Embassy-wide objectives
but, in light of the importance of the other major components of the overall embassy
counter-narcotics program, we have come to realize that our impact on those higher-
level objectives may be less than fully within our manageable interest. Indeed, due
mainly to data quality problems (i.e. the major discrepancies between the CNC data and
the UN data that was discussed in the audit report), USAID/Peru will be dropping those
indicators after this year’s annual report.

The Mission does indeed consider “Number of Hectares of Illicit Coca Voluntarily
Eradicated” and “Number of Program Clients Who Remain Coca Free” to be key
indicators of success of the ADP. In this regard, the Program exceeded its targets for
both these indicators in both CYs 2003 and 2004. For CY 2005, the program has
already exceeded its target for number of coca free program clients (30,455 vs target of
30,000). As of November 7, 2005, the program has achieved 1,062 hectares of coca
voluntarily eradicated towards its CY target of 3000. The Mission is relatively confident
that the final result will fall between 2,500 and 3,000. The Mission requests that these
data be taken into account to reevaluate the conclusion of the draft report.

Based on this record, the Mission considers the Alternative Development Program to be
essentially on schedule to achieve planned sustainable results. With some refinements
(i.e. the possible addition of a component of “post-programmed eradication alternative
development” as outlined below to complement the voluntary eradication program), the
Mission looks forward to continuing successful implementation of the Program through
the end of the current strategy period (end FY 2007).

The following are the Mission’s comments on, and responses to, the 16 specific
recommendations of the draft audit report. In many cases we agree with the
recommendations and outline the steps we are taking (or in some instances had already
taken) to resolve the issues. In some cases we agree with the audit team’s
characterization of the ideal solution to a problem (e.g. the recommendation to limit
benefits to communities until the communities completely eradicate their coca), but
disagree on the feasibility of the recommended solution or the timetable for its
implementation.

SPECIFIC COMMENTS ON AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Peru develop an action plan
along with the State Department’s Narcotics Affairs Section (NAS) to obtain
needed support from the Government of Peru.

   Discussion: The Mission agrees with the audit finding that more effective host
   government support would improve ADP project performance. As is the case with
   many USAID programs around the world, one of our greatest challenges is to
   increase host country “ownership” of the development agenda. The situation for
   USAID/Peru is further complicated by the fact that the alternative development
   program is just one component of a major overarching Embassy-wide counter-
   narcotics program.

                                                                                            36
                                                                          APPENDIX II

Given the cross-agency nature of the USG counter-narcotics program, USAID is just
one of several USG agencies at Post that struggle on a daily basis to try to improve
GOP commitment and support for the various components of the program. The
Ambassador is well aware of the various shortcomings in terms of cooperation and
support received from the Peruvian government at all levels, and regularly utilizes his
own communications channels to the highest levels of the GOP to try to improve
performance. Still, for all the reasons cited in the audit report, there could be vast
improvement in support forthcoming from the host government.

Action: USAID/Peru and NAS are moving forward with a joint plan to leverage
increased GOP support in the areas where both programs are working, and the plan
has already resulted in increased government commitments in two of the three areas
(security and increased eradication pressure) specifically mentioned in the audit
report.

The USAID/NAS plan calls for much closer coordination between NAS’ support for
GOP programmed eradication efforts and USAID’s voluntary eradication program. In
a marked change from past practices, USAID will offer alternative development
programs to communities that have undergone programmed eradication and are
willing to sign agreements not to replant their coca. By providing viable licit options
for these communities, this new strategy will allow the GOP to break the cycle of
communities repeatedly undergoing programmed eradication and then simply
replanting. It also allows the government to soften the image of the programmed
eradication program as not providing any alternatives. From the USG side, this new
approach is providing an opportunity to leverage increased GOP support for the AD
program.

Given the GOP’s interest in USAID agreeing to provide post-eradication alternative
development programs for the reason cited above, USAID and NAS recently and in
various forums jointly presented the plan to Devida and CORAH (the GOP entity that
carries out programmed eradication), to make clear the concrete actions and
commitments the GOP would need to take for the USG to agree to implement the
plan. As outlined below, the various GOP entities have accepted the plan, have
agreed to the necessary commitments, and are proceeding with concrete actions.

The audit report discusses the need for stronger, more responsive state presence in
the coca-producing regions and improved security, and in response to the joint plan
the GOP is already taking major steps in that direction. The USAID/NAS plan called
for the first post-eradication alternative development intervention to take place in
Pizana/Polvera (a hard-core coca-growing area where a major programmed
eradication campaign was just completed). But USAID/NAS informed the GOP that,
if the intervention is to take place, it must be the GOP itself that takes the lead in the
difficult (and even somewhat dangerous) work of 1) advising local government
leaders in that area that they will not be allowed to replant; and 2) convincing them
that they that they should agree to participate in the AD program under “no
replanting” agreements.

As a result of the united USAID/NAS front on the issue and the attractiveness of the
program offered, Devida has already reacted. Regional Devida officials have begun
meeting with government officials in the various communities (3 to date) in the
Pizana/Polvora area, and are transmitting the agreed-upon uncompromising
message to them. This is a major step forward for a GOP entity that to date has
been reluctant to be the face of a tough CN message to local communities. As local
                                                                                       37
                                                                           APPENDIX II

   government officials begin to agree to sign up for and even lead the program in their
   communities (and indications are that that will happen), this could be a significant
   step forward for increasing the authority and prestige of government in those areas,
   and ultimately lead to improved security.

   The audit report notes the need for increased GOP support for AD programs through
   stepped up programmed eradication; increasing the perceived threat and thereby
   driving communities to agree to participate in voluntary eradication agreements. The
   joint USAID/NAS plan has also leveraged increased GOP support in this area.
   CORAH has agreed to support the proposed post-eradication alternative
   development plan by returning repeatedly over the next year to re-eradicate in the
   Pizana/Polvora area (a major change in CORAH’s usual eradication plans). This
   commitment to re-eradication is critically important to the success of a post-
   eradication alternative development program, (so that those communities become
   convinced that there is no alternative to a coca free community), and exactly what is
   needed in terms of GOP support.

   The only area that is specifically mentioned in the audit report in which to date we
   have been unable to leverage additional GOP support and commitment is in land
   titling, and this case provides an excellent illustration of the limits of our power to
   leverage commitments. Despite great and repeated efforts over the last several
   years by the USAID technical office, USAID mission management, and even by the
   Ambassador himself on several occasions with the highest levels of the GOP, it has
   proved impossible to successfully rally GOP support to this effort to produce 6,000
   land titles. The Mission will continue to push at all levels (indeed, the issue was
   raised in a briefing by the Ambassador to the Prime Minister on November 9) in order
   to complete this activity successfully.

Recommendation No. 2: We recommend that USAID/Peru in coordination with the
State Department’s Narcotics Affairs Section (NAS), CADA (Cuerpo de Asistencia
para el Desarrollo Alternativo), DEVIDA (Comision Nacional para el Desarrollo y
Vida Sin Drogas), and Chemonics, develop a better strategy for targeting
communities with high concentrations of coca fields and verifying that all coca
grown in the communities has been eradicated.

   Discussion: Since the initiation of the voluntary eradication program in late 2002
   and through the audit period of 2004, USAID, NAS, DEVIDA and CADA have been
   meeting regularly to define eradication plans for both voluntary eradication and
   programmed eradication. In the beginning of the voluntary eradication program, the
   eradication plan was specifically designed not to target or favor communities with
   high concentrations of coca for several reasons. One reason was so as not to create
   a perverse incentive for communities to grow more coca. A goal was to include as
   many communities as possible in the coca-growing regions that had coca, even
   those that had lesser amounts than others, so as not to create the perception that
   the USG and the Government of Peru were rewarding communities that had been
   growing large amounts of illicit coca and ignoring communities that had chosen a licit
   life-style. Further, political and social conditions in the coca-growing areas were
   such that even CORAH, the GoP’s heavily police-protected programmed eradication
   team, could not move into hard-core communities to eradicate because of the social
   unrest that analysts agreed would follow. Eradication, voluntary or otherwise, was
   just too de-stabilizing for an already unpopular government and too risky for a shaky
   democracy.

                                                                                       38
                                                                        APPENDIX II

And while the program was not as efficient or cost-effective as it might have been
had these limiting circumstances not existed, the first phase did achieve some major
successes. By going into communities with even a small amount of coca and getting
the population to sign the voluntary eradication agreement, the program eroded the
popular base of support that the cocaleros had been enjoying and exploiting for
years. The first phase also consolidated areas around major USG investments, such
as the Fernando Belaunde Terry (FBT) highway, and went a long way to making
these areas largely coca free.

Even in this difficult context, USAID/Peru has continuously committed to making the
program as efficient as possible. Starting in late calendar year 2004, the program
shifted to operating on a multi-community basis and has limited investment in
communities to $2,000 per hectare eradicated.

As for measuring coca and verifying that it is eradicated, the audit is correct in
describing the processes as “time-consuming”. Unfortunately, the ADP had no
choice in the matter of phasing coca eradication and its measurement. President
Toledo signed Supreme Decree 044 in April, 2003, stipulating that voluntary
eradication must be “gradual and concerted”. Thus, eradication and its verification
had to be done in stages, making it operationally cumbersome for the contractor and
for CADA. On the other hand, there were positive aspects to the multiple visits that
CADA and the contractor paid to the communities.

When the voluntary eradication program began Devida, the GoP agency responsible
for reaching agreements, had no credibility in the field. Local populations, rightly or
wrongly, believed that the GoP would welch on any promises made to deliver
benefits under the program, reflecting a well-documented national tendency to
distrust government entities. Local populations echoed the narco-led mantra that:
“alternative development is a failure.” By phasing voluntary eradication and the
subsequent investment in communities, the program succeeded in demonstrating its
commitment to the community. The gradual flow of benefits to the communities was
an important step in building credibility with populations that felt that they had been
deceived in the past. This said, the Alternative Development Program goes to
considerable efforts to encourage communities to eradicate their coca all at once, an
option that many communities choose, requiring that CADA return only once for
verification.

Action: As the draft audit report points out, targeting communities for coca
eradication and verifying its eradication is cumbersome and USAID/Peru, NAS,
CADA and CORAH must continuously refine their methodologies so that voluntary
eradication and programmed eradication are using USG funds as efficiently as
possible. As of FY 2003, there is an inter-institutional committee composed of the
above-mentioned agencies that meets throughout the year to target areas for
eradication, monitor progress and address challenges that invariably arise in this
complex environment.       For 2006, USAID and NAS plan to pursue new
methodologies for targeting coca for the voluntary eradication program. First, NAS
has new surveillance capability in a C26 airplane equipped with a camera and Global
Position System (GPS). NAS will perform overflights in areas suspected to have
dense coca, map the coca and give the information to USAID, so that USAID’s
contractor can approach the local authorities and the communities about the
voluntary eradication program.       Secondly, the program will procure satellite
photographs, CADA will analyze them and the USAID contractor will ground-truth the
analysis.
                                                                                    39
                                                                        APPENDIX II


   For the verification step of the voluntary eradication program, USAID, NAS, CADA
   and Chemonics have already initiated a more efficient and more effective
   methodology. When a community is ready to eradicate, CADA returns to the
   community and supervises the eradication as it is happening. To date in the 2005
   VE program, virtually all communities have eradicated all at once, reducing to one
   the number of times that CADA has to return to a community.

Recommendation No. 3: We recommend that USAID/Peru require communities to
eradicate all of their coca at one time, not in phases.

   Action: USAID/PERU agrees with the audit finding that it would be more efficient
   and cost effective for communities to eradicate their coca at one time. As explained
   in the discussion above, the Supreme Decree signed by President Toledo in April,
   2003, does not allow the program to insist on eradication of all of the coca in
   communities at once - - it must be gradual and concerted. But communities may
   choose to eradicate at one time and USAID, through its contractor, will continue to
   encourage communities to do so.6

Recommendation No. 4: We recommend that USAID/Peru increase the weight
assigned to achieving results (for hectares of coca eradicated and the number of
clients who remain coca free) to at least 50 percent of the award fee pool.

   Action: The Award Fee Plan for 2006 and 2007 will stipulate that 50 percent of the
   award fee pool will be assigned to meeting the eradication target and the number of
   clients who remain coca-free. USAID/Peru considers it too late in the calendar year
   to change the Award Fee Plan for 2005.

Recommendation No. 5: We recommend that USAID/Peru a) modify its contract
with Chemonics International, Inc. to reflect the revised target and b) ensure that
the revised target is consistent among mission documents.

   Action: USAID/Peru agrees that all documents pertaining to the Alternative
   Development program must be consistent. The MAARD to request the contract
   revisions has been cleared by all pertinent USAID/Peru staff. The revised contract
   will be signed by the contractor in the next thirty (30) days. All other mission
   documents will be reviewed and revised as needed within the next 60 days.

Recommendation No. 6: We recommend that USAID/Peru establish voluntary
eradication targets for calendar years 2006 and 2007 that are achievable and
realistic, but not set too low that they become irrelevant to the program
objectives.

   Action: USAID/Peru has established a contract (not program) target of 2,500
   hectares for 2006 and 500 hectares for 2007 for the present contract. The contract
   end date is September 2007, which, in the final year of the contract, gives the
   contractor only 9 months to achieve the target and close out the program, as well as

   6
     In fact, in the most recent series of multi-community agreements, communities
   are choosing to eradicate all at once, demonstrating a confidence in the program
   that did not previously exist.


                                                                                      40
                                                                               APPENDIX II

   implement the infrastructure projects and initiate productive activities. The targets
   are consistent with an efficient implementation, given the level of funding available
   through the end of the contract.

Recommendation No. 7: We recommend that USAID/Peru develop a plan to
transition the cash payment program into a program that promotes more
sustainable income generation.

   Discussion: The Mission notes that the headline title of this section of the draft
   audit report is “Cash Payments Were Susceptible to Fraud…”, yet the body of the
   report fails to mention the good news. Although significant funds were disbursed in
   cash payments to a large number of beneficiaries under very difficult field conditions,
   there have been no indications of fraud. USAID/Peru agrees that any cash payment
   program in the coca-growing regions is susceptible to fraud, but the reality is that the
   Mission and the contractor took great pains to ensure that fraud did not occur.
   Indeed, the audit team spent significant field time tracking down randomly selected
   program beneficiaries and, to our knowledge, no fraud was uncovered.

   The audit report quotes CADA officials as saying that “…ironically, farmers in several
   communities began to grow more coca in order to become eligible for cash
   payments.” It would seem illogical that farmers would go to the trouble to plant coca
   fields in order to become eligible for the payments, since it was widely known in the
   coca valleys that all community members, coca-growing or not, would receive the
   same payment under the program.

   Action: USAID/Peru agrees with the conclusion of the draft audit report that the
   resources expended for cash payments could better promote sustainable income
   generation if invested in economic infrastructure projects or development of licit
   productive activities. Based on the Mission’s ongoing reservations regarding the
   development value of the bonuses, in June, 2005 the contractor was requested to
   perform an assessment, through extensive field surveys in beneficiary communities,
   of the impact of these payments. Overall results were mixed, although the surveys
   did show that many PDA clients (41%) used the bonus to invest in their farms, clearly
   achieving a developmental impact.

   A more worrisome finding of the surveys, in light of the goal to transition out of such
   payments, was that nearly half the PDA participants said they would not have signed
   the agreement without the bonus. Abruptly removing it from the benefit package
   might affect the program’s ability to meet its objectives in the short term.

   As recommended in the audit report, USAID/Peru and its contractor are in the
   process of trying to phase out the bonus payment so that funds budgeted for the
   payments could instead be invested in sustainable development activities, but we
   also recognize the value of the payment as a catalyst to convince families to take
   that first step towards a licit life style. The Mission must retain the flexibility to allow
   the possible use of the bonus payment in the overall development package, while
   ensuring that the contractor do everything possible to phase out the payment so that
   in the next stage of USAID/Peru’s Alternative Development Program a bonus
   payment will not be part of the package.

Recommendation No 8: We recommend that USAID/Peru a) ensure that the
program can deliver infrastructure projects before signing agreements with
communities, b) provide clear boundaries to its implementing partners
                                                                                            41
                                                                             APPENDIX II

(Chemonics International, Inc. and the Government of Peru’s counter-narcotics
agency (DEVIDA)) on what can be promised to communities, and c) modify the
standard agreements with communities to include language stating that the
infrastructure projects can only be delivered after necessary environmental
assessments are performed.

   Action: USAID/Peru agrees with this recommendation and as of January 2005, had
   already implemented a new standard agreement with the communities that states
   that all infrastructure projects are subject to an environmental assessment prior to
   implementation. USAID/Peru has also provided the contractor with explicit guidance
   as to what kinds of projects are allowable in these negotiations. A technical
   information sheet (ficha) for every possible type of infrastructure project is included in
   the negotiation packet and includes information as to type and scope of the project,
   program and community commitments under the agreement, scheduling and any
   conditions precedents needed to initiate the project.

Recommendation No 9: We recommend that USAID/Peru ensure that Chemonics
establishes and enforces policies that describe the types of infrastructure works
that contribute to the program goal of generating licit economic activities and
therefore may be financed with program funds.

   Discussion: USAID/Peru agrees with this recommendation and, in January, 2005,
   introduced a new agreement to be used in negotiations with the communities. The
   agreement includes guidelines/checklists for the community liaison workers to use
   when prioritizing infrastructure projects. There are six types of projects that can be
   negotiated in the agreement. They include: (i) educational infrastructure, (ii) water
   and sewage, (iii) health infrastructure (iv) economic infrastructure (v) electrification
   and (vi) road rehabilitation and bridge construction.

   If a community or group of communities requests a project that is not part of the
   approved list, the contractor must receive USAID/Peru approval prior to negotiating
   with the communities.

   Action: USAID/Peru agrees with this recommendation and has implemented a new
   community negotiation process that will ensure that only infrastructure projects that
   contribute to the program goal of generating licit economic activities will be
   implemented under the program.

Recommendation No 10: We recommend that USAID/Peru ensure that a)
community agreements require communities to develop and implement
maintenance plans, b) Chemonics helps communities to develop the plans, and c)
the potable water system in Ricardo Palma, Peru is repaired.

   Discussion: Given that the Alternative Development Program, almost by definition,
   operates in communities that have a near-complete lack of government presence,
   the process of creating and enforcing maintenance agreements at the community
   level could be an entire sub-activity of the program. Notwithstanding the difficulties,
   in each of the scopes of work for sub-contractors and sub-grantees of the
   Chemonics contract, the sub-contractor or sub-grantee is required to initiate and train
   a community maintenance committee for the infrastructure project that is being
   implemented. Chemonics has implemented almost 500 infrastructure projects in the
   last two years. These projects are scattered throughout a wide, complex and difficult
   geographic area, many reachable only by foot. Because of the sheer quantity of
                                                                                          42
                                                                            APPENDIX II

   work, the maintenance committees and their plans took a back seat to getting the
   works completed in a timely manner. In addition, competing demands on field staff
   required them to move into new communities to initiate voluntary eradication to meet
   the new year’s goals, leaving little time for them to return to communities that had
   already eradicated to make sure that the maintenance committees were operational
   and plans were in place. This was a short-coming of the 2004 work plan and the
   supervision of the sub-contractors and the sub-grantees.

   Action: All future infrastructure work will include an implementation plan for a
   community maintenance committee, and the contractor will be responsible for the
   organization and training of said committee. The deliverable under these sub-
   contracts will be a viable maintenance plan that the community agrees to implement.
   A sub-contract with a local NGO has been in place since June 1 2005, and its scope
   of work includes the training and implementation of the maintenance committees.
   The community shall assume responsibility for the sustainability of the committee
   and the infrastructure once the infrastructure work is officially transferred to the
   community. An Alternative Development team member is now specifically charged
   with following up on the maintenance committees and maintenance plans.

   The potable water system in Ricardo Palma has been repaired and is currently
   functioning.

Recommendation No. 11: We recommend that USAID/Peru make a management
decision with regard to the ineligible questioned costs of $225,037 and recover
from Chemonics International, Inc. the amounts determined to be unallowable.

   Discussion: The funds reported as disbursed to communities after they had
   rejected the PDA do not pertain to monies directly channeled to those communities.
   Rather, because of the nature of the implementation instruments used by the
   Alternative Development Program — grants and subcontracts with Peruvian
   organizations to provide the goods and/or services required to execute agreed upon
   projects — funds are disbursed directly to those organizations in accordance with the
   terms of their respective grants and subcontracts. Funds are not directly disbursed
   to beneficiary communities.

   Further, in the accounting system, these implementation instruments are linked to
   the specific communities they have been designed to support. Each community
   included in the grant or subcontract is assigned a certain weight within the total value
   of the instrument depending on the number of hectares being attended (i.e., for a
   productive activity) or project being implemented (i.e., infrastructure). For example, if
   10 communities are part of a single grant, for every disbursement of $100, each
   community may be assigned $10. If one of these communities rejects the program
   subsequent to initiation of the activity, the status of this individual community within
   the monitoring and evaluation system is changed to “frozen” so that the respective
   allocations are not made to the community rejecting the Alternative Development
   Program. In some cases following rejection by a community, the system was not
   immediately updated for a variety of factors, including continued socialization efforts
   with the community to convince them to switch back to supporting the Alternative
   Development Program. As a consequence, there were cases such as those
   identified in the audit report where the accounting system continued to assign
   disbursement values to a community after it had rejected the Alternative
   Development Program. However, this “tracking” of funds is at the system level; it

                                                                                         43
                                                                           APPENDIX II

   does not reflect disbursement of funds to, or direct support to communities after they
   reject the program.

   Finally, after the communities in question rejected the Alternative Development
   Program, payments under the respective implementation instruments were still due
   to the grantees and/or subcontractors for work completed in those communities prior
   to their rejection of the program.

   In summary, based on the above explanation as well as the community-specific
   information provided in the attached table, we are confident that Alternative
   Development Program funds were not spent on projects in non-compliant
   communities once their rejection of the program became known. Any appearance of
   inappropriate use of Alternative Development funds in those communities is the
   result of (a) the method in which community information is aggregated in the
   accounting system, including the delay, in some cases, of classifying communities as
   “paralyzed” because socialization efforts were continued in an effort to get them to
   support the program, and (b) disbursements being made to pay for costs incurred by
   grantees or subcontractors for work undertaken prior to those communities rejecting
   the program.

   Action: The investigation into the matter of funds that appeared to have been spent
   on behalf of non-compliant communities revealed, as is explained above, that to the
   extent expenditures took place as part of the normal service/reimbursement process,
   they: 1) related to satisfying accounts for works accomplished prior to the non-
   compliant status, or 2) related to the "shutting down" process wherein final attempts
   were made to get communities to change their mind (socialization costs, not
   benefits). Other apparent expenditures related to how the Chemonics accounting
   system aggregated and/or prorated fixed and higher level expenses. Given these
   findings, the Mission concludes that there do not appear to be $225,037 of
   unallowable costs. For the first category, it would not have been prudent or
   acceptable from either the business or local relations viewpoint to void these kinds of
   payment obligations. For the second category, clear standards will be confirmed for
   segregating and limiting socialization, as opposed to benefits, expenses. Finally, the
   cost accounting system will be reviewed with the objective of tagging or backing out
   upper level cost allocations formerly associated with non-compliant, hence non-
   participating, communities. The overall objective will be to avoid this confusion in
   future.

Recommendation No. 12: We recommend that USAID/Peru limit benefits to
communities until the communities completely eradicate their coca fields.

   Discussion: In the first phase of the program, benefits were initiated immediately
   after the communities signed their voluntary eradication agreements, primarily to
   demonstrate the commitment of the program to follow through with the promised
   investments in the communities.

   Fair or not, there was widespread belief in the coca-growing areas that alternative
   development programs over the years had been a failure; there was a great lack of
   trust and little social capital for the program to leverage. Moreover, because the
   eradication methodology was phased (as outlined above, the law prohibits the
   Alternative Development Program from demanding that coca be eradicated all at
   once), USAID/Peru had built-in check points so that if eradication was not taking
   place, infrastructure work could be stopped. The thinking was that if the population
                                                                                       44
                                                                            APPENDIX II

   stopped eradicating their coca and the infrastructure work was then stopped, a
   partially-finished school or multi-purpose room could be a tool for the people who
   had eradicated their coca to apply social pressure to those who defaulted on the
   agreement. There were, in fact, several communities in which works were paralyzed
   and then resumed when pressure was put on those community members who were
   not eradicating their coca.

   Because the Alternative Development Program has now implemented almost 500
   infrastructure projects in the last two years, it has gained the trust of hundreds of
   communities in the area. As a sign of the trust that has been earned, in the first set
   of multi-communities to sign the voluntary eradication agreement with DEVIDA in
   2005, no benefits were initiated until after all the coca was eradicated.

   Action: The Mission agrees that limiting benefits until coca is eradicated is the ideal
   manner in which to implement the voluntary eradication program and, as illustrated
   above, we have been successfully moving towards that goal. The Mission believes
   that in most new communities that the Alternative Development Program will enter
   we can do business that way. However, given that the Alternative Development
   Program is steadily moving into more “hard core” areas (i.e. communities that
   depend on coca for a larger portion of their overall income) where there is a much
   lower level of trust for the Program, USAID/Peru must retain the flexibility to allow
   benefits to be provided in a phased manner as coca is eradicated, since there will be
   communities that only sign up for the program under these conditions.

Recommendation No. 13: We recommend that USAID/Peru a) establish a
reasonable limit on the investments made in the communities and b) ensure
compliance with the limits.

   Action:     USAID/Peru agrees with this recommendation and in May 2005
   implemented a policy that limits direct investment in a community to $2,000 per
   hectare of coca voluntarily eradicated. This limit is being strictly monitored by the
   contractor and might have to be adjusted upwards depending on the reaction of the
   communities and the sustainability of the eradication.

Recommendation No. 14: We recommend that USAID/Peru require communities
to contribute to infrastructure projects by entering into cost sharing agreements
with communities.

   Discussion: USAID/Peru strongly agrees with the concept of cost sharing to
   promote community “ownership”, yet when the program was designed, cost sharing
   by the communities was not considered to be an option for several reasons. One is
   that the target population is one of the poorest and most marginalized in all of Peru.
   The very nature of these isolated, stateless, communities is the reason they are the
   target of the narco-traffickers. Secondly, the only real cash crop in many of these
   communities was coca, leaving few legitimate community resources to contribute.
   Thirdly, if in-kind labor for infrastructure projects were considered as cost-sharing, it
   would take the farmers away from tending their subsistence crops and could have
   further repercussions such as a decline in nutritional status of the farming family. In
   fact, wages for unskilled labor performed by community members were built into the
   program to soften the blow of the eradication of coca on a family’s income. Until
   PDA-supported products, such as cacao, coffee and African palm, are mature and
   producing income, USAID/Peru sees little opportunity to require a cost-sharing plan
   by the community.
                                                                                         45
                                                                          APPENDIX II


   On the other hand, USAID/Peru and its contractor are now working with local mayors
   and other elected leaders to prioritize projects that they and their constituents had
   identified in their Regional Development Plans and only investing in those projects if
   there is a counterpart contribution from the municipality.

   Action: USAID/Peru agrees that cost-sharing must be integrated into the Alternative
   Development Program. USAID/Peru’s contractor is now requiring local governments
   to share costs in infrastructure projects that are a part of the Regional Development
   Plan.

Recommendation No 15: We recommend that USAID/Peru a) conduct a personnel
assessment to determine the level of staffing required to implement the program
and to determine if the salaries paid are reasonable, and b) monitor and ensure
that Chemonics International, Inc. will transition its international staff as intended.

   Discussion: On a monthly basis USAID/Peru and Chemonics carefully analyze real
   project and implementation needs. As a way to save project funds and facilitate
   implementation, a decision is sometimes made to hire staff for direct implementation
   rather than subcontracting these activities. A good example of this is directly
   employing an engineer to supervise infrastructure projects, rather than sub-
   contracting a firm for that same kind of work. For this reason, though the number of
   direct hires at a given moment might appear high, there is ample programmatic and
   cost justification.

   The number of employees mentioned by the auditors (220) includes staff that
   contribute 100% of their time to the direct implementation of Alternative Development
   Program investments for beneficiary communities. This number has a direct
   correlation with the number of activities carried out by the Alternative Development
   Program and so, when the infrastructure component of the program slows down, the
   numbers of employees will decrease. Also, working with more than 379 communities
   (with at least 250 more being added in 2005) and providing technical assistance,
   inputs, and supervision of more than 37,500 hectares of crops require appropriate
   staffing levels to ensure that resources are being used properly and achieving
   intended results.

   As the Alternative Development Program implementation proceeds, the number of
   employees will decrease as the level of activities diminish. Such a reduction in staff
   was always contemplated in the budget.

   The reasonableness of salary levels is based on market analysis and prior
   experience/salary history. These are all well supported by documentation in
   Chemonics personnel files.

   Action: USAID/Peru is working carefully with Chemonics to continuously analyze
   staff needs. A staff reduction plan has been established for the remaining two years
   of the contract.

   As agreed to in the Alternative Development contract, the four expatriate positions
   were scheduled to transition to local professional staff by March 2006 (two years
   after contract award). However, in an effort to reduce costs, as well as to increase
   local ownership, Chemonics advanced three of these departures to December 2005.
   The total estimated salary savings from this 3-month change is approximately
                                                                                      46
                                                                           APPENDIX II

   $44,000. The fourth ex-pat is staying on until March, 2006 at USAID/Peru’s
   request. The USAID/Peru Office of Environment requested that Chemonics’ forestry
   expert stay on for three more months to help that office in its work on forestry
   concessions in coca-growing regions.

   In 2006, two other expatriate positions will be eliminated, leaving only two expatriates
   in place until the end of the contract. As mentioned in the report, the six expatriates
   who leave the project will be replaced by Peruvian professionals already on the staff
   who have been mentored and trained to take over these roles.

Recommendation No. 16: We recommend that USAID/Peru make a management
decision with regard to the ineligible questioned costs of $2,487 and recover from
Chemonics International, Inc. the amounts determined to be unallowable.

   Action: The Mission is concerned over the question of appropriate salary increases
   paid out by Chemonics. We will pursue the issue with them, identify any salaries that
   are not in compliance with Chemonics policy and/or required USAID approvals,
   request these salaries be adjusted, and issue a bill of collection for any excessive
   salary payments.




                                                                                        47
                                                                                                    APPENDIX III

                           Alternative Development Program Indicators



            Total Hectares of Coca Eradicated                             Num ber of ADP Clients Who Rem ained
                                                                                       Coca Free
5,000                                                            30,000
                              4,533                                                                          27,704
4,500

                                                                 25,000
4,000

3,500
                                                      2,728      20,000
                                                                                         18,241
3,000

2,500                                                            15,000

2,000

                                                                 10,000
1,500

1,000    1,005
                                                                  5,000
 500
                                                                             490
   0                                                                 0
  CY 2002                   CY 2003                    CY 2004      CY 2002                CY2003                  CY2004


            Total Hectares of Illicit Coca in Peru                        Population Involved in Coca Production

60,000                                                           60,000

                                                                                                             52,755
                                                 50,300                                   50,350
50,000                                                           50,000
         46,700
                              44,200
                                                                          40,260
40,000    36,600                                                 40,000

                              31,150
                                                     27,500
30,000
                                                                 30,000


20,000
                                                                 20,000


10,000
                                                                 10,000


    0
   CY 2002                  CY 2003                    CY 2004       0
                        United Nations Survey                       CY 2002               CY 2003              CY 2004
                        CNC Survey




                                                                                                                    48
                                                                                                    APPENDIX III

                             Alternative Development Program Indicators


           Num ber of Com m unities Signing and
                                                                       Num ber of Fam ilies That Form ally Agree
             Com plying With Coca Elim ination
                                                                               to Elim inate Their Coca
                       Agreem ents
350                                                            35000

                               318                                                                         31,946

300                                                            30000
                                                                                        27,692


250                                                            25000



200                                                            20000



150                                                            15000



100                                                            10000
                                                         43

50                                                             5000

          18                                                             1784
 0                                                                0
CY 2002                     CY 2003                  CY 2004     CY 2002                 CY 2003              CY 2004


                                                                       Percent of Target Population That Accept
            Cum m ulative Percent of Total Target
                                                                         The Need To Elim inate Coca in Their
          Fam ilies That Form ally Agree to Elim inate
                                                                                     Com m unity
                          Their Coca
  20                                                           43.3
                                                    18.8
  18                                                                                                         43.2
                               16.3                            43.2
  16

  14                                                           43.1


  12
                                                                43

  10
                                                               42.9
      8
                                                                       42.8
      6                                                        42.8

      4
                                                               42.7
      2
      1
  0                                                            42.6
 CY 2002                     CY 2003                 CY 2004    CY 2003                                       CY 2004




                                                                                                                    49
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
            www.usaid.gov/oig
